                             NCUA 2009
                    FINANCIAL STATEMENT AUDITS
                                FOR
                             OPERATING FUND
                          SHARE INSURANCE FUND
                        CENTRAL LIQUIDITY FACILITY
                COMMUNITY DEVELOPMENT REVOLVING LOAN FUND




                 For the year ended December 31, 2009

        Audited Financial Statements             Audit Report Number

NCUA Operating Fund                                     OIG-10-09
National Credit Union Share Insurance Fund              OIG-10-10
Central Liquidity Facility                              OIG-10-11
Community Development Revolving Loan Fund               OIG-10-12




                             June 11, 2010




                           William A. DeSarno
                           Inspector General
                          EXECUTIVE SUMMARY
PURPOSE AND SCOPE             The National Credit Union Administration (NCUA)
                              Office of Inspector General contracted with the
independent public accounting firm of KPMG LLP to perform the financial
statement audits of the NCUA Operating Fund, the Share Insurance Fund, the
Central Liquidity Facility, and the Community Development Revolving Loan Fund
for the year ended December 31, 2009.

The purpose of the audits is to express an opinion on whether the financial
statements are fairly presented. The independent firm also reviewed the internal
control structure and evaluated compliance with laws and regulations, as part of
their audit.

The audits were performed in accordance with generally accepted auditing
standards and Government Auditing Standards issued by the Comptroller
General of the United States. The Inspector General contracted with KPMG LLP
in June 2009 to perform the financial statement audits mentioned above. The
contract was for 2009, with options for 2010 and 2011. The Inspector General
was the contracting officer for this contract.

AUDIT RESULTS         KPMG LLP expressed unqualified opinions, stating that the
                      financial statements present fairly, in all material respects,
the financial position of the NCUA Operating Fund, the Share Insurance Fund,
the Central Liquidity Facility, and the Community Development Revolving Loan
Fund at December 31, 2009, and the results of operations for the year then
ended.

Although KPMG LLP did not express an overall opinion of the Funds’ compliance
with laws and regulations, their testing of compliance did not disclose any
significant deviations.
National Credit Union
Administration
Operating Fund
Financial Statements as of and for the Years Ended
December 31, 2009 and 2008, and Independent
Auditors’ Reports
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

TABLE OF CONTENTS


                                                                 Page

INDEPENDENT AUDITORS’ REFORT ON FINANCIAL STATEMENTS              1

FINANCIAL STATEMENTS AS OF AND FOR THE YEARS ENDED
  DECEMBER 31, 2009 AND 2008:

 Balance Sheets                                                   2

 Statements of Revenues, Expenses, and Changes in Fund Balance    3

 Statements of Cash Flows                                         4

 Notes to Financial Statement                                    5–12



INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL
  OVER FINANCIAL REPORTING



INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE AND OTHER MATTERS
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                        Independent Auditors’ Report on Financial Statements


Inspector General, National Credit Union Administration and
the Board of Directors, National Credit Union Administration:

We have audited the accompanying balance sheet of the National Credit Union Administration Operating
Fund (the Fund) as of December 31, 2009, and the related statements of revenues, expenses, and changes
in fund balance, and cash flows for the year then ended (hereinafter referred to as “financial statements”).
These financial statements are the responsibility of the Fund’s management. Our responsibility is to
express an opinion on these financial statements based on our audit. The accompanying financial
statements of the Fund as of December 31, 2008, were audited by other auditors whose report thereon
dated February 17, 2009, expressed an unqualified opinion on those statements.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement. An audit includes consideration of internal
control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the Fund’s internal
control over financial reporting. Accordingly, we express no such opinion. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial statements,
assessing the accounting principles used and significant estimates made by management, as well as
evaluating the overall financial statement presentation. We believe that our audit provides a reasonable
basis for our opinion.

In our opinion, the 2009 financial statements referred to above present fairly, in all material respects, the
financial position of the National Credit Union Administration Operating Fund as of December 31, 2009,
and the results of its operations and its cash flows for the year then ended in conformity with U.S.
generally accepted accounting principles.

In accordance with Government Auditing Standards, we have also issued our reports dated April 29, 2010,
on our consideration of the Fund’s internal control over financial reporting and our tests of its compliance
with certain provisions of laws, regulations, contracts, and other matters. The purpose of those reports is to
describe the scope of our testing of internal control over financial reporting and compliance and the results
of that testing, and not to provide an opinion on the internal control over financial reporting or on
compliance. Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards and should be read in conjunction with this report in assessing the results of our audit.




April 29, 2010




                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

BALANCE SHEETS
AS OF DECEMBER 31, 2009 AND 2008
(Dollars in thousands)


                                                                         2009       2008
ASSETS

CASH AND CASH EQUIVALENTS (Note 4)                                     $ 24,321   $ 21,592

DUE FROM NATIONAL CREDIT UNION SHARE INSURANCE                           2,258        169
 FUND (Note 6)

EMPLOYEE ADVANCES                                                          166         91

OTHER ACCOUNTS RECEIVABLE (Note 6)                                         274        283

PREPAID EXPENSES AND OTHER ASSETS                                        1,505      4,173

FIXED AND INTANGIBLE ASSETS — Net of accumulated
 depreciation and amortization (Note 5)                                 37,503     33,399

TOTAL                                                                  $ 66,027   $ 59,707


LIABILITIES AND FUND BALANCE

LIABILITIES:
 Accounts payable                                                      $ 3,036    $ 4,063
 Obligations under capital leases (Note 7)                                  41        300
 Accrued wages and benefits                                              7,109      4,118
 Accrued annual leave                                                    9,922      8,907
 Accrued employee travel                                                   179          6
 Note payable to National Credit Union Share Insurance Fund (Note 6)    18,438     19,779

      Total liabilities                                                 38,725     37,173

COMMITMENTS AND CONTINGENCIES (Notes 6, 7, 11 & 12)

FUND BALANCE (Note 10)                                                  27,302     22,534

TOTAL                                                                  $ 66,027   $ 59,707


See accompanying notes to financial statements.



                                                  -2-
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

STATEMENTS OF REVENUES, EXPENSES, AND CHANGES IN FUND BALANCE
FOR THE YEARS ENDED DECEMBER 31, 2009 AND 2008
(Dollars in thousands)


                                                                2009       2008

REVENUES:
 Operating fees                                             $ 81,679     $ 72,423
 Interest                                                         41          773
 Other                                                           544          566

      Total revenues                                            82,264    73,762

EXPENSES, NET (Note 6):
 Employee wages and benefits                                    58,469    56,030
 Travel                                                          8,185     7,505
 Rent, communications, and utilities                             1,935     1,908
 Contracted services                                             4,119     3,414
 Other                                                           4,788     4,755

      Total expenses                                            77,496    73,612

EXCESS OF REVENUES OVER EXPENSES                                 4,768       150

FUND BALANCE — Beginning of year                                22,534    22,384

FUND BALANCE — End of year                                  $ 27,302     $ 22,534


See accompanying notes to financial statements.




                                                  -3-
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

STATEMENTS OF CASH FLOWS
FOR THE YEARS ENDED DECEMBER 31, 2009 AND 2008
(Dollars in thousands)


                                                                                                           2009          2008

CASH FLOWS FROM OPERATING ACTIVITIES:
 Excess of revenues over expenses                                                                      $ 4,768       $     150
 Adjustments to reconcile excess of revenues over expenses to cash provided by operating activities:
  Depreciation and amortization                                                                             2,711         3,181
  Provision for loss on disposal of employee residences held for resale                                       330           283
  (Increase) decrease in assets:
    Due from National Credit Union Share Insurance Fund                                                    (2,089)          103
    Employee advances                                                                                         (75)           52
    Other accounts receivable                                                                                   9          (114)
    Prepaid expenses and other assets                                                                       2,668        (2,857)
  (Decrease) increase in liabilities:
    Accounts payable                                                                                       (1,027)         (153)
    Accrued wages and benefits                                                                              2,991           893
    Accrued annual leave                                                                                    1,015           332
    Accrued employee travel                                                                                   173             1

      Net cash provided by operating activities                                                            11,474         1,871

CASH FLOWS FROM INVESTING ACTIVITIES:
 Purchases of fixed assets                                                                                 (6,838)       (2,367)
 Purchases of employee residences held for sale                                                            (1,258)       (1,286)
 Proceeds from sale of employee residences held for resale                                                    951         1,486

      Net cash used in investing activities                                                                (7,145)       (2,167)

CASH FLOWS FROM FINANCING ACTIVITIES:
 Repayments on note payable to National Credit Union Share Insurance Fund                                  (1,341)       (1,341)
 Principal payments under capital lease obligations                                                          (259)         (946)

      Net cash used in financing activities                                                                (1,600)       (2,287)

NET INCREASE (DECREASE) IN CASH AND CASH EQUIVALENTS                                                        2,729        (2,583)

CASH AND CASH EQUIVALENTS — Beginning of year                                                              21,592        24,175

CASH AND CASH EQUIVALENTS — End of year                                                                $ 24,321      $ 21,592


CASH PAYMENTS FOR INTEREST                                                                             $     509     $     807


See accompanying notes to financial statements.




                                                                -4-
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

NOTES TO FINANCIAL STATEMENTS
AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2009 AND 2008


1. ORGANIZATION AND PURPOSE

    The National Credit Union Administration Operating Fund (the “Fund”) was created by the Federal
    Credit Union Act of 1934. The Fund was established as a revolving fund in the United States Treasury
    under the management of the National Credit Union Administration (NCUA) Board for the purpose of
    providing administration and service to the Federal Credit Union System.

2. SIGNIFICANT ACCOUNTING POLICIES

    Basis of Presentation — The Fund has historically prepared its financial statements in accordance with
    accounting principles generally accepted in the United States of America (GAAP), based on standards
    issued by the Financial Accounting Standards Board (FASB), the private sector standards setting body.
    In October 1999, the American Institute of Certified Public Accountants (AICPA) designated the
    Federal Accounting Standards Advisory Board (FASAB) as the standards setting body for the
    establishment of accounting principles generally accepted in the United States of America with respect
    to the financial statements of Federal government entities. The FASAB has indicated that financial
    statements prepared based upon standards promulgated by the FASB may also be regarded as in
    accordance with GAAP for those Federal entities that have issued financial statements based upon
    FASB standards in the past, which is the case for the Fund. Consistent with historical reporting, the
    Fund’s financial statements are presented in accordance with accounting and financial reporting
    standards promulgated by the FASB.

    Basis of Accounting — The Fund maintains its accounting records in accordance with the accrual basis
    of accounting. As such, the Fund recognizes income when earned and expenses when incurred. In
    addition, the Fund records investment transactions when they are executed and recognizes interest on
    investments when it is earned.

    Related Parties — The Fund exists within the National Credit Union Administration and is one of five
    funds managed by the NCUA Board. The other funds managed by the Board, deemed related parties,
    are: a) the National Credit Union Share Insurance Fund (NCUSIF); b) the Temporary Corporate Credit
    Union Stabilization Fund (TCCUSF); c) Central Liquidity Facility (CLF); and d) the Community
    Development Revolving Loan Fund (CDRLF). The Fund supports related parties by proving office
    space, information technology services, and supplies as well as paying employees’ salaries and benefits.
    Certain types of support are reimbursed to the Fund by NCUSIF and CLF based on allocation formulas,
    as described in Note 6.

    Cash Equivalents — Cash equivalents are highly liquid investments with original maturities of three
    months or less. The Federal Credit Union Act permits the Fund to invest in United States Government
    securities or securities guaranteed as to both principal and interest by the United States Government. All
    investments in 2009 and 2008 were cash equivalents and are stated at cost, which approximates fair
    value.

    Fixed and Intangible Assets — Buildings, furniture, equipment, computer software, and leasehold
    improvements are recorded at cost. Computer software includes the cost of labor incurred by both


                                                    -5-
external and internal programmers as well as other personnel in the development of the software. Capital
leases are recorded at the present value of the future minimum lease payments. Depreciation and
amortization are computed by the straight-line method over the estimated useful lives of buildings,
furniture, equipment, and computer software, and the shorter of either the estimated useful life or lease
term for leasehold improvements and capital leases. Estimated useful lives are forty years for the
building and three to ten years for the furniture, equipment, computer software, and leasehold
improvements.

Long-lived Assets — Fixed and intangible assets, subject to amortization, are reviewed for impairment
whenever events or changes in circumstances indicate that the carrying amount of an asset may not be
recoverable. If the carrying value of the long-lived asset or asset group is not recoverable, an impairment
is recognized to the extent that the carrying value exceeds its fair value. Fair value is determined through
various valuation techniques including discounted cash flow models, quoted market values, and third
party independent appraisals, as considered necessary.

Accounts Payable, Accrued Expenses, and Due from Related Parties — The Fund incurs
administrative expenses and liabilities for programs pertaining to related parties that are controlled by
the NCUA Board. Year-end balances of accounts payable and accrued expenses include amounts
related to the NCUSIF and the CLF. Therefore, unreimbursed administrative expenses related to these
entities are recognized as receivables in the accompanying financial statements.

Accrued Benefits — The Fund incurs expenses for retirement plans, employment taxes, workers
compensation, transportation subsidies, and other benefits mandated by law. Corresponding liabilities
recorded contain both short-term and long-term liabilities, including liabilities under the Federal
Employees’ Compensation Act (FECA). This act provides income and medical cost protection to
covered federal civilian employees injured on the job, employees who have incurred a work-related
occupational disease, and beneficiaries of employees whose death is attributable to a job-related injury
or occupational disease.

Operating Fees — Each federally chartered credit union is assessed an annual fee based on their assets
as of the preceding thirty-first day of December. The fee is designed to cover the costs of providing
administration and service to the Federal Credit Union System. The Fund recognizes this operating fee
revenue ratably over the year.

Income Taxes — The Fund is exempt from Federal income taxes under Section 501(c)(1) of the
Internal Revenue Code.

Leases — Operating leases are entered into for the acquisition of office space and equipment as part of
administering NCUA’s program. The cost of operating leases is recognized on the straight-line method
over the life of the lease and includes, if applicable, any reductions resulting from incentives such as rent
holidays. The same method is used to recognize income from operating leases. Certain office space
leases are subject to escalations in rent, as described in Note 7.

Fair Value of Financial Instruments — The following methods and assumptions were used in
estimating the fair value disclosures for financial instruments:

Cash and cash equivalents, receivables from related parties, employee advances, other accounts
receivable, accounts and notes payable to NCUSIF, and other accounts payable are recorded at book
values, which approximate their respective fair values.




                                                 -6-
   Use of Estimates — The preparation of financial statements in conformity with accounting principles
   generally accepted in the United States of America requires management to make estimates and
   assumptions that affect the reported amounts of assets and liabilities and disclosure of contingent
   liabilities at the date of the financial statements and the reported amounts of revenues and expenses
   incurred during the reporting period. Significant estimates include the determination of the FECA
   liability, certain computer software asset values, and if there is any determination of a long-lived asset
   impairment, the related measurement of the impairment charge.

   Reclassifications — Certain amounts in the prior year’s financial statements have been reclassified to
   conform to the current year presentation.

3. NEWLY IMPLEMENTED ACCOUNTING STANDARDS

   In June 2009, the Financial Accounting Standards Board (FASB) issued Statement of Financial
   Accounting Standards (SFAS) No. 168, The FASB Accounting Standards Codification and the Hierarchy
   of Generally Accepted Accounting Principles. SFAS No. 168 established the FASB Accounting
   Standards Codification (ASC) as the source of authoritative accounting principles recognized by the
   FASB to be applied by entities in the preparation of financial statements in conformity with U.S. GAAP.

   Effective December 31, 2009, the Fund adopted FASB ASC 855, Subsequent Events (precodification
   FASB SFAS No. 165, Subsequent Events). FASB ASC 855 establishes general standards of accounting
   for and disclosure of events that occur after the balance sheet date but before financial statements are
   issued or are available to be issued. FASB ASC 855 defines the period after the balance sheet date
   during which management shall evaluate events or transactions that may occur for potential recognition
   or disclosure, which entails both the circumstances under which an organization shall recognize events
   occurring after the balance sheet date and the disclosures that an organization shall make about those
   events or transactions. FASB ASC 855 defines two types of subsequent events. The first type consists
   of events or transactions that provide additional evidence about conditions that existed at the date of the
   balance sheet, including the estimates inherent in the process of preparing financial statements (i.e., a
   nonrecognized event).

4. CASH AND CASH EQUIVALENTS

   The Fund’s cash and cash equivalents at December 31, 2009 and 2008 are as follows (in thousands):

                                                                                      2009            2008

    Deposit with U.S. Treasury                                                    $      513      $    1,249
    U.S. Treasury overnight investments                                               23,808          20,343

    Total                                                                         $ 24,321        $ 21,592




                                                    -7-
5. FIXED AND INTANGIBLE ASSETS

   Fixed and intangible assets are comprised of the following at December 31, 2009 and 2008
   (in thousands):

                                                                                 2009           2008

     Office building and land                                                 $ 43,595        $ 43,358
     Furniture and equipment                                                    15,676          13,501
     Equipment under capital leases                                                152           2,782
     Assets under construction                                                   4,441           1,000

            Total                                                               63,864          60,641

     Less accumulated depreciation and amortization                             (26,361)       (27,242)

     Fixed and intangible assets — net                                        $ 37,503        $ 33,399

   Furniture and equipment includes computer software acquired externally and developed internally. The
   carrying value and accumulated amortization of computer software as of December 31, 2009 and 2008
   were $4,401,000 and $1,972,000, and $2,285,000 and $1,312,000, respectively. Amortization expense
   for the years ended December 31, 2009 and 2008 totaled $660,000 and $401,000, respectively.

   Accumulated amortization balances for equipment under capital leases as of December 31, 2009 and
   2008 were $111,000 and $2,523,000 respectively. Amortization expense for the years ended
   December 31, 2009 and 2008 totaled $230,000 and $870,000, respectively.

   Assets under construction primarily represents developmental costs incurred from the customization of
   software purchased from external vendors for internal use. This includes the federal financial
   accounting system that was implemented in January 2010.

6. RELATED PARTY TRANSACTIONS

  (a) Transactions with the National Credit Union Share Insurance Fund (NCUSIF)

     Certain administrative services are provided by the Fund to NCUSIF. The Fund charges NCUSIF for
     these services based upon an annual allocation factor approved by the NCUA Board and derived from
     a study of actual usage. The allocation factor was 53.8% to NCUSIF for 2009 and 52.0% for 2008.
     The cost of the services allocated to NCUSIF, which totaled approximately $90,244,000 and
     $79,385,000 for 2009 and 2008, respectively, is reflected as a reduction of the corresponding
     expenses in the accompanying financial statements. These transactions are settled monthly. At
     December 31, 2009 and 2008, amounts due from NCUSIF, under this allocation method, totaled
     $2,258,000 and $169,000, respectively.

     In 1992, the Fund entered into a commitment to borrow up to $41,975,000 in a thirty-year secured
     term note with NCUSIF. The monies were drawn as needed to fund the costs of constructing a
     building in 1993. Interest costs incurred were $509,000 and $807,000 for 2009 and 2008,
     respectively. The note payable balances at December 31, 2009 and 2008 were approximately
     $18,438,000 and $19,779,000, respectively.




                                                 -8-
   The variable rate on the note is equal to NCUSIF’s prior-month yield on investments. The average
   interest rates during 2009 and 2008 were 2.56 % and 3.95%, respectively. The interest rates at
   December 31, 2009 and 2008 were 2.06 % and 3.49%, respectively.

   The above note requires principal repayments at December 31, 2009 as follows (in thousands):

    Years Ending                                                                              Secured
    December 31                                                                              Term Note

    2009                                                                                     $ 1,341
    2010                                                                                       1,341
    2011                                                                                       1,341
    2012                                                                                       1,341
    2013                                                                                       1,341
    Thereafter                                                                                11,733

    Total                                                                                    $ 18,438

(b) Transactions with the Central Liquidity Facility (CLF)

   Certain administrative services are provided by the Fund to the CLF. The Fund pays CLF’s employee
   salaries and related benefits as well as CLF’s portion of building and operating costs. Reimburse-
   ments of these expenses are determined by applying a ratio of CLF full-time equivalent employees to
   the NCUA total, with settlement and payment occurring quarterly. All other CLF reimbursement
   expenses are paid annually. The costs of the services provided to the CLF were approximately
   $334,000 and $259,000 for 2009 and 2008, respectively, and are reflected as a reduction of the
   corresponding expenses in the accompanying financial statements.

   Other accounts receivable include approximately $145,000 and $110,000 of amounts due from the
   CLF as of December 31, 2009 and 2008, respectively.

(c) Support of the Community Development Revolving Loan Fund (CDRLF)

   The Fund supports the administering of programs under the CDRLF by paying related personnel and
   other associated costs. This estimation of administrative costs include salaries, employee benefits,
   travel, training, telephone, supplies, printing, and postage.

   For the years ending December 31, 2009 and 2008, administrative support to CDRLF is estimated at
   (in thousands):

                                                                                    2009           2008

    Employee                                                                    $    242       $      213
    Other                                                                             12               12

    Total                                                                       $     254      $      225




                                               -9-
  (d) Federal Financial Institutions Examination Council (FFIEC)

     The NCUA is one of the five federal agencies that fund FFIEC operations. Under FFIEC’s charter,
     NCUA’s Chairman is appointed as a Member. The FFIEC was established on March 10, 1979 as a
     formal interagency body empowered to prescribe uniform principles, standards, and report forms for
     the federal examination of financial institutions by the National Credit Union Administration, the
     Board of Governors of the Federal Reserve System, the Federal Deposit Insurance Corporation, the
     Office of the Comptroller of the Currency, and the Office of Thrift Supervision, and to make
     recommendations to promote uniformity in the supervision of financial institutions. Additionally,
     FFIEC provides training to staff of member agencies, which are charged based on use. For the years
     ended December 31, 2009 and 2008, FFIEC assessments total $760,000 and $816,000, respectively.
     FFIEC’s 2010 budgeted assessments for NCUA total $854,000.

7. LEASE COMMITMENTS

     Description of Leasing Agreements — The Fund has entered into a number of lease agreements
     with vendors for the rental of office space as well as the leasing of office equipment that includes
     laptops, printers, monitors, and copiers.

     Operating Leases — The Fund leases office space under lease agreements that expire through 2014.
     Office rental charges amounted to approximately $1,089,000 and $923,000, of which approximately
     $586,000 and $480,000 were reimbursed by NCUSIF for 2009 and 2008, respectively. In addition,
     the Fund leases laptop computers and other office equipment under operating leases with lease terms
     that expire through 2012.

     Capital Leases — The Fund leases equipment under lease agreements that expire through 2012.

     The future minimum lease payments as of December 31, 2009, before reimbursements, are as follows
     (in thousands):

      Years Ending                                                                    Operating         Capital
      December 31                                                                      Leases           Leases

      2010                                                                            $ 1,760       $       17
      2011                                                                              1,897               17
      2012                                                                              1,128                7
      2013                                                                                512
      2014                                                                                125

      Total                                                                           $ 5,422       $       41


     Based on the allocation factor approved by the NCUA Board for 2009, NCUSIF is expected to
     reimburse the Fund for approximately 53.8% of the future operating lease payments.

8. RETIREMENT PLANS

   Eligible employees of the Fund are covered by federal government retirement plans, either the Civil
   Service Retirement System (CSRC) or the Federal Employees Retirement System (FERS). Both plans
   are defined benefit retirement plans covering all of the employees of the Fund. FERS is comprised of a
   Social Security Benefits Plan, a Basic Benefits Plan, and a Savings Plan. Contributions to the plans are


                                                  - 10 -
   based on a percentage of an employee’s gross pay. Under the Savings Plan, employees may also elect
   additional contributions up to $16,500 in 2009, and the Fund will match up to 5% of the employee’s
   gross pay. In 2009 and 2008, the Fund’s contributions to the plans were approximately $14,021,000 and
   $12,768,000, respectively, of which approximately $7,543,000 and $6,639,000, respectively, were
   reimbursed by NCUSIF.

   These defined benefit plans are administered by the U.S. Office of Personnel Management (OPM),
   which determines the required employer contribution level. The Fund does not account for the assets
   pertaining to the above plans and does not have actuarial data with respect to accumulated plan benefits
   or the unfunded liability relative to eligible employees. These amounts are reported by the OPM and are
   not allocated to individual employers.

9. ESTIMATED FAIR VALUE OF FINANCIAL INSTRUMENTS

   The following disclosures of the estimated fair value of financial instruments are made in accordance
   with the requirements of FASB ASC No. 825, Disclosures about Fair Value of Financial Instruments.
   The fair value of a financial instrument is the amount that would be received to sell an asset or paid to
   transfer a liability in an orderly transaction between market participants at the measurement date. The
   methods and assumptions used in estimating the fair value disclosures for financial instruments are as
   follows:

   Cash and cash equivalents — The carrying amounts for cash and cash equivalent financial instruments
   approximate fair values. Cash equivalents are U.S. Treasury overnight investments.

   Due from NCUSIF —The carrying amount for the due from NCUSIF approximates fair value.

   Employee Advances —The carrying amounts for receivables from employees approximate fair values.

   Obligation under capital lease —The carrying amounts for the remaining obligations owed on capital
   leases approximate fair values.

   Note payable to NCUSIF — The carrying amount for the note payable to NCUSIF approximates fair
   value.

   The carrying amounts and the estimated fair values of the Fund’s financial instruments are as follows (in
   thousands):

                                                       December 31, 2009              December 31, 2008
                                                      Carrying     Fair              Carrying     Fair
                                                      Amount      Value              Amount      Value

     Cash and cash equivalents                        $ 24,321      $ 24,321        $ 21,592      $ 21,592
     Due from NCUSIF                                     2,258         2,258             169           169
     Employee advances                                     166           166              91            91
     Obligation under capital lease                         41            41             300           300
     Note payable to NCUSIF                             18,438        18,438          19,779        19,779




                                                   - 11 -
10. FUND BALANCE AND RETAINED EARNINGS APPROPRIATION

    In 2006, the NCUA Board established an appropriation of the fund balance in an effort to more
    transparently disclose and communicate to stakeholders earnings which were necessary for major
    projects that could not be accrued or would not warrant inclusion in the annual operating expense
    budget. The initial appropriation of $1,000,000 was for repairs and maintenance on NCUA’s Alexandria
    headquarters building.

    For the years ending December 31, 2009 and 2008, retained earnings appropriation is estimated at (in
    thousands):

                                                                                      2009           2008

    Fund balance (excluding retained earnings appropriation)                       $ 26,302       $ 21,534
    Retained earnings appropriation                                                   1,000          1,000

    Total fund balance                                                             $ 27,302       $ 22,534


11. CONTINGENCIES

    The Fund is currently a party to a number of disputes that involve or may involve litigation. In the
    opinion of management, the ultimate liability with respect to any other disputes, if any, will not be
    material to the Fund’s financial position.

12. COLLECTIVE BARGAINING AGREEMENT

    The NCUA has a collective bargaining agreement with the National Treasury Employees Union (NTEU)
    that became effective on January 11, 2008. NTEU is the exclusive representative of approximately 80%
    of NCUA employees. This agreement shall remain in effect for a period of three years from its effective
    date and shall be automatically renewable for additional one year periods unless either party notifies the
    other party, in writing, at least 60 days, but not more than 120 days, prior to the expiration date of this
    agreement of its intention to renegotiate this agreement; the first notification period starts September 13,
    2010 and ends November 12, 2010.

13. SUBSEQUENT EVENTS

    Subsequent events have been evaluated through April 29, 2010, which is the date the financial
    statements were available to be issued. There have been no activities that would materially affect
    financial statement balances as of December 31, 2009.



                                                 ******




                                                    - 12 -
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




             Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General, National Credit Union Administration and
the Board of Directors, National Credit Union Administration:

We have audited the balance sheet of the National Credit Union Administration Operating Fund (the Fund)
as of December 31, 2009, and the related statements of revenues, expenses, and changes in fund balance,
and cash flows for the year then ended (hereinafter referred to as “financial statements”), and have issued
our report thereon dated April 29, 2010.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement.

The management of the Fund is responsible for establishing and maintaining effective internal control. In
planning and performing our fiscal year 2009 audit, we considered the Fund’s internal control over
financial reporting by obtaining an understanding of the Fund’s internal control, determining whether
internal controls had been placed in operation, assessing control risk, and performing tests of controls as a
basis for designing our auditing procedures for the purpose of expressing our opinion on the financial
statements. To achieve this purpose, we did not test all internal controls relevant to operating objectives as
broadly defined by the Federal Managers’ Financial Integrity Act of 1982. The objective of our audit was
not to express an opinion on the effectiveness of the Fund’s internal control over financial reporting.
Accordingly, we do not express an opinion on the effectiveness of the Fund’s internal control over
financial reporting.

Our consideration of internal control over financial reporting was for the limited purpose described in the
preceding paragraph and was not designed to identify all deficiencies in the internal control over financial
reporting that might be deficiencies, significant deficiencies, or material weaknesses.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A significant deficiency is a deficiency, or a
combination of deficiencies, in internal control that is less severe than a material weakness, yet important
enough to merit attention by those charged with governance. A material weakness is a deficiency, or
combination of deficiencies, in internal control, such that there is a reasonable possibility that a material
misstatement of the entity’s financial statements will not be prevented, or detected and corrected on a
timely basis.

In our fiscal year 2009 audit, we identified certain individual and collective deficiencies in internal control
over financial reporting that we consider to be a material weakness, described in Exhibit I.


                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
National Credit Union Administration Operating Fund
April 29, 2010
Page 2 of 2


The Fund’s response to the finding identified in our audit is presented in Exhibit II. We did not audit the
Fund’s response and, accordingly, we express no opinion on it.

We noted certain additional matters that we have reported to management of the Fund in a separate letter
dated April 29, 2010

This report is intended solely for the information and use of the addressees, Fund’s management, OMB, the
U.S. Government Accountability Office, and the U.S. Congress and is not intended to be and should not be
used by anyone other than these specified parties.




April 29, 2010
                                                                                                     Exhibit I
                          NATIONAL CREDIT UNION ADMINITRATION –
                                     OPERATING FUND
                                        MATERIAL WEAKNESS
Introduction
This exhibit describes the material weakness noted during our audit as of and for the year ended
December 31, 2009, and our recommendations thereon. The National Credit Union Administration
Operating Fund (the Fund) management’s response to this finding is presented in Exhibit II.

Improvements Needed in Financial Accounting and Reporting Process
The Fund has historically followed several accounting policies and practices that are not in accordance
with U.S. generally accepted accounting principles (herein after referred to as non-GAAP policies). The
Fund’s management had neither identified nor documented and evaluated non-GAAP policies to determine
their financial statement impact in the current and future reporting periods. For example, the Fund recorded
the workers’ compensation liability on a pay-as-you-go method. The pay-as-you-go method did not take
into consideration the probable and estimable future payments (i.e., the actuarial component contemplated
by the Financial Accounting Standards Board (FASB) Accounting Standards Codification (ASC) 712,
Determining the Timing and Method of Accruing Other Postemployment Benefits) and thus failed to
capture both the “life-of-claim costs” and an estimate of any amounts incurred-but-not-reported (IBNR).
Upon further analysis, NCUA determined that its $112,000 workers’ compensation liability determined
using the pay-as-you-go method was $2.1 million less than the $2.3 million actuarial liability estimated
using the Department of Labor calculation model for small Federal agencies. Other instances of non-
GAAP polices that the Fund’s management had not identified, included policies that had lower impact than
the workers’ compensation liability, related to fixed and intangible assets and lease accounting. In addition
to recording adjusting entries to properly reflect the workers’ compensation liability, the Fund also
acknowledged and recognized entries to reduce asset balances, adjust lease transactions, and modify certain
other accounts. The largest quantified difference of these items was less than $400,000.

Further, the Fund does not have sufficiently comprehensive policies and procedures that document internal
control activities and monitoring functions that should be embedded and/or performed within the financial
accounting and reporting process. Additionally, the Fund does not have sufficient staff resources with the
experience in technical accounting and reporting requirements that the entity requires to consistently
perform certain internal control activities, particularly those related to financial reporting. For example, we
noted:

        (i) A lack of documentation of control activities. The Fund does not have procedures in place that
        require review and approval of the journal entries and related supporting documentation because
        the journal entries that we tested did not have evidence that the journal entries were reviewed and
        approved by someone other than the preparer. Several journal entries we tested, including cut-off
        and manual entries that required management judgment, were estimated without consideration of
        key pertinent and available data. We also noted a key person dependency, as almost all manual
        journal entries we tested were recorded by one individual.

        (ii) Difficulties encountered by management in providing support for key reported items in the
        financial statements. One specific example was account reconciliations that were not readily
        available, despite such reconciliations being noted as completed in management’s Federal
        Management Financial Integrity Act (FMFIA) certifications.

        (iii) Ineffective comprehensive financial statement reviews. The reviews performed by the Fund’s
        management were not performed at a level of detail that would reasonably detect or identify
        financial statement errors and missing disclosures and, in part, the individuals performing the

                                                     I-1
                                                                                                    Exhibit I
                          NATIONAL CREDIT UNION ADMINITRATION –
                                     OPERATING FUND
                                        MATERIAL WEAKNESS
         review did not possess adequate training and/or institutional expertise that would enable effective
         performance of such reviews. One specific example was lack of appropriate identification of
         related parties and inadequate disclosure of related party relationships.

We believe that lack of comprehensive policies and procedures and monitoring functions contributed to the
audit adjustments recognized during our audit, and if they persist, the situation could lead to inconsistent
application of processes and breakdown in internal control activities across the Fund that could lead to
material financial statement.

The FMFIA requires that agencies establish internal controls according to standards prescribed by the
Comptroller General and specified in the GAO Standards for Internal Control in the Federal Government
(GAO Standards). These standards define internal control as an integral component of an organization’s
management that provides reasonable assurance that the following objectives are being achieved:
effectiveness and efficiency of operations, reliability of financial reporting, and compliance with applicable
laws and regulations. GAO Standards state that internal controls should generally be designed to assure
that on-going monitoring occurs in the course of normal operations. Management is responsible for
developing control activities, which are the policies, procedures, techniques, and mechanisms that enforce
management’s directives and help ensure actions address risks. The activities include reviews by
management at the functional or activity level, proper execution of transactions and events, accurate and
timely recording of transactions and events, and appropriate documentation of transactions and internal
control.

This deficiency represents a material weakness.

Recommendations

We recommend that the NCUA modify accounting policies, procedures and controls as follows:

•   Reassess on a comprehensive basis the staff capabilities and operational and reporting processes to
    determine the areas where new and/or revised controls are warranted. This is especially vital when
    viewed within the context of the migration to the new financial accounting system. Consider also the
    control environment to determine the necessary requirements to satisfy the FMFIA criteria above.

•   Match qualified personnel who are regularly trained and who possess the unique skills necessary to
    account for and report NCUA transactions consistent with the requirements of U.S. generally accepted
    accounting principles to the key NCUA process and control activities.

•   Improve the overall core competencies of key financial management and personnel through training
    that is sufficiently robust and focused on the areas of need.

•   Adopt a formal process to regularly update the Fund’s policies and procedures when significant
    operational and accounting pronouncement changes occur. Where transactions are similar across the
    NCUA, it may be advantageous to prepare combined accounting policies.

•   Assess those areas of operations in which non-GAAP policies may be prevalent.

    i)   Create a log or otherwise sufficiently document all existing and newly identified non-GAAP
         policies and practices.


                                                    I-2
                                                                                                   Exhibit I
                         NATIONAL CREDIT UNION ADMINITRATION –
                                    OPERATING FUND
                                        MATERIAL WEAKNESS
    ii) Annually evaluate non-GAAP policies and practices to determine the impact of such policies in the
        current and future reporting periods.

•   Update the NCUA Rules and Regulations or prepare a supplemental manual to ensure that internal
    controls are documented, implemented, and periodically evaluated and monitored to mitigate
    operational and financial accounting and reporting risks. In certain areas, similar processes may exist
    and function across multiple NCUA funds and offices. Thus, management could take maximum
    advantage of leveraging related controls across the various funds.

•   Develop and implement policies and procedures to:
    i) Require review and approval of all journal entries by an appropriate individual other than the person
    generating the entry; and
    ii) Assign documented accountability for supervisory reviews either electronically through system
    access or manually through hard copy sign-off.

•   Implement policies and procedures to appropriately estimate the financial statement impact of
    transactions that are accounted for on a preliminary or tentative basis or develop procedures to capture
    data that is not otherwise received on a current basis so that reasonable accruals are made.

•   Establish formal policies and procedures regarding supervisory reviews of financial statements and
    related supporting documentation to ensure that all significant and relevant missing disclosures are
    identified and financial statement errors are identified and corrected in a timely manner.




                                                    I-3
                        National Credit Union Administration

                                                                                   Exhibit II
                    NATIONAL CREDIT UNION ADMINISTRATION
                               OPERATING FUND

                   MANAGEMENT RESPONSE TO AUDIT FINDINGS


Findings: Improvements Needed in Financial Accounting and Reporting Process

The OCFO experienced a significant increased level of work during 2009, including
implementing a new financial management system, adding the Temporary Corporate
Credit Union Stabilization Fund, assessing insured credit unions for the collection of a
premium, and addressing a considerable increase in the level of complexity in accounting
transactions and reporting.

The financial statement audit, which resulted in an unqualified opinion, identified findings
related to needed improvement in the Operating Fund’s financial accounting and reporting
processes. While these findings represent a small segment of the Fund’s activities, NCUA
agrees that they warrant management’s attention.

We believe the findings can best be categorized as:
   1. Weaknesses with conforming our annual financial statements into the form and
      content required by Generally Accepted Accounting Principles;
   2. Lack of documentary evidence of supervisory review, especially over journal entries
      where a single person dependency exists; and
   3. Comprehensiveness of documentation with accounting policies and procedures.

We will implement corrective action to address these findings taking into consideration the
agency’s resources and priorities.

   1. Weaknesses with conforming our annual financial statements into the form and
      content required by generally accepted accounting principles:

       NCUA is a small Federal agency and must focus its resources on essential functions.
       Financial accounting and reporting is viewed by executive agency management as
       important and essential. Financial highlights of all funds are made available to all
       at public Board meetings and on the agency’s web site. The findings cited by our
       auditors relate to our annual process of preparing the financial statements in the
       form and content required by generally accepted accounting principles. To
       strengthen our financial reporting, we will review and refine our internal control
       processes and evaluate training requirements.

   2. Lack of documentary evidence of supervisory review, especially over journal entries
      where a single person dependency exists:

       As a small agency with limited resources, NCUA is still required to assess its
       internal control structure with the goal of ensuring that risks are appropriately
       mitigated. The cited findings are primarily with non-payment related journal

  1775 Duke Street - Alexandria, VA 22314-3428 - 703-518-6300
   entries (e.g., accruals) and have been previously assessed by management as a low
   risk. Large non-recurring and unusual entries are verbally discussed. Controls
   around payment related transactions are considered a higher risk and do include
   segregation of duties, multiple levels of supervisory reviews, and cash reconcilia-
   tions. As part of implementing our new financial management system, we will
   review controls around journal entries and consider establishing a threshold for
   documenting supervisory review of journal entries above a certain dollar threshold
   or unusual in nature.

3. Comprehensiveness of documentation with accounting policies and procedures:

   Audit findings highlighted the lack of comprehensiveness of our accounting policies
   and procedures as well as available documentation to evidence compliance.
   Although our policies and procedures are not unified, they include an online
   directives library of approximately 230 subject areas, written policies for key areas,
   staff desk procedures, a procurement manual, a travel manual, among other
   instructional documents. Additionally, we have evidenced our policy research on
   emerging items, such as accounting for the implementation of our new financial
   management system, the taxation of gifts, and guarantees. In response, NCUA will
   review controls where the availability of documentation appeared limited and
   strengthen processes accordingly. NCUA will also start building a repository of
   accounting and internal control policies and practices, which can be readily accessed
   by all NCUA staff.




                                          2
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                   Independent Auditors’ Report on Compliance and Other Matters


Inspector General, National Credit Union Administration and
the Board of Directors, National Credit Union Administration:

We have audited the balance sheet of the National Credit Union Administration Operating Fund (the Fund)
as of December 31, 2009, and the related statements of revenues, expenses, and changes in fund balance,
and cash flows for the year then ended (hereinafter referred to as “financial statements”), and have issued
our report thereon dated April 29, 2010.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement.

The management of the Fund is responsible for complying with laws, regulations, and contracts applicable
to the Fund. As part of obtaining reasonable assurance about whether the Fund’s financial statements are
free of material misstatement, we performed tests of the Fund’s compliance with certain provisions of
laws, regulations and contracts, noncompliance with which could have a direct and material effect on the
determination of the financial statement amounts, and certain provisions of other laws and regulations
specified in OMB Bulletin No. 07-04. We limited our tests of compliance to the provisions described in the
preceding sentence, and we did not test compliance with all laws, regulations, and contracts applicable to
the Fund. However, providing an opinion on compliance with those provisions was not an objective of our
audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance discussed in the third paragraph of this report disclosed no instances
of noncompliance or other matters that are required to be reported herein under Government Auditing
Standards or OMB Bulletin No. 07-04.

This report is intended solely for the information and use of the addressees, the Fund’s management, OMB,
the U.S. Government Accountability Office, and the U.S. Congress and is not intended to be and should
not be used by anyone other than these specified parties.




April 29, 2010




                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
National Credit Union
Share Insurance Fund
Financial Statements as of and for the Years Ended
December 31, 2009 and 2008, and
Independent Auditors’ Reports
NATIONAL CREDIT UNION SHARE INSURANCE FUND

TABLE OF CONTENTS


                                                             Page

 INDEPENDENT AUDITORS’ REPORTS ON FINANCIAL STATEMENTS       1-2

 FINANCIAL STATEMENTS AS OF AND FOR THE YEARS ENDED
   DECEMBER 31, 2009 AND 2008

  Balance Sheets                                              3

  Statements of Operations                                    4

  Statements of Changes in Fund Balance                       5

  Statements of Cash Flows                                    6

  Notes to Financial Statements                              7-21

INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER
FINANCIAL REPORTING WITH FINDINGS AND RESPONSE - 2009

INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE AND
OTHER MATTERS - 2009

INDEPENDENT AUDITORS’ REPORTS ON INTERNAL CONTROL OVER
FINANCIAL REPORTING ON COMPLIANCE AND OTHER MATTERS - 2008

SCHEDULE OF FINDINGS AND RESPONSES - 2008
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                        Independent Auditors’ Report on Financial Statements


Inspector General, National Credit Union Administration and
the Board of Directors, National Credit Union Administration:

We have audited the accompanying balance sheet of the National Credit Union Share Insurance Fund
(NCUSIF) as of December 31, 2009, and the related statements of operations, changes in fund balance, and
cash flows for the year then ended (hereinafter referred to as “financial statements”). These financial
statements are the responsibility of the NCUSIF’s management. Our responsibility is to express an opinion
on these financial statements based on our audit.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement. An audit includes consideration of internal
control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the NCUSIF’s
internal control over financial reporting. Accordingly, we express no such opinion. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial statements,
assessing the accounting principles used and significant estimates made by management, as well as
evaluating the overall financial statement presentation. We believe that our audit provides a reasonable
basis for our opinion.

In our opinion, the 2009 financial statements referred to above present fairly, in all material respects, the
financial position of the National Credit Union Share Insurance Fund as of December 31, 2009, and the
results of its operations and its cash flows for the year then ended in conformity with U.S. generally
accepted accounting principles.

In accordance with Government Auditing Standards, we have also issued our reports dated June 11, 2010,
on our consideration of the NCUSIF’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts, and grant agreements and other matters.
The purpose of those reports is to describe the scope of our testing of internal control over financial
reporting and compliance and the results of that testing, and not to provide an opinion on the internal
control over financial reporting or on compliance. Those reports are an integral part of an audit performed
in accordance with Government Auditing Standards and should be read in conjunction with this report in
assessing the results of our audit.




June 11, 2010




                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
INDEPENDENT AUDITORS’ REPORT

To the Inspector General of
National Credit Union Administration:

We have audited the accompanying balance sheet of the National Credit Union Share Insurance Fund
(NCUSIF) as of December 31, 2008, and the related statements of operations, changes in fund balance,
and of cash flows for the year then ended. These financial statements are the responsibility of NCUSIF’s
management. Our responsibility is to express an opinion on these financial statements based on our audit.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States. Those standards require that we plan and perform
the audit to obtain reasonable assurance about whether the financial statements are free of material
misstatement. An audit includes consideration of internal control over financial reporting as a basis for
designing audit procedures that are appropriate in the circumstances, but not for the purpose of expressing
an opinion on the effectiveness of NCUSIF’s internal control over financial reporting. Accordingly, we
express no such opinion. An audit also includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements, assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial statement
presentation. We believe that our audit provides a reasonable basis for our opinion.

In our opinion, such financial statements present fairly, in all material respects, the financial position of
the National Credit Union Share Insurance Fund as of December 31, 2008, and the results of its
operations and its cash flows for the year then ended in conformity with accounting principles generally
accepted in the United States of America.

As discussed in Note 8 to the financial statements, effective June 18, 2009, NCUSIF legally transferred
certain obligations to a newly formed entity, the Temporary Corporate Credit Union Stabilization Fund
(TCCUSF). As a result, effective with that date, NCUSIF was no longer required to consolidate certain
corporate credit unions in accordance with Financial Accounting Standards Board (FASB) Accounting
Standards Codification (ASC) 810, Consolidation (formerly, FASB Interpretation No. 46 (R),
Consolidation of Variable Interest Entities). Because NCUSIF and TCCUSF are under common control,
this has resulted in a change in reporting entity in accordance with FASB ASC 250, Accounting Changes
and Error Corrections, which change has been applied retrospectively.

In accordance with Government Auditing Standards, we have also issued our report dated June 10, 2010,
on our consideration of NCUSIF’s internal control over financial reporting and our tests of its compliance
with certain provisions of laws, regulations, contracts, and grant agreements and other matters. The
purpose of that report is to describe the scope of our testing of internal control over financial reporting
and compliance and the results of that testing and not to provide an opinion on the internal control over
financial reporting or on compliance. That report is an integral part of an audit performed in accordance
with Government Auditing Standards and should be read in conjunction with this report in considering the
results of our audits.




June 10, 2010


                                                     -2-
NATIONAL CREDIT UNION SHARE INSURANCE FUND

BALANCE SHEETS
AS OF DECEMBER 31, 2009 AND 2008
(Dollars in thousands)

                                                                          2009           2008

ASSETS

Cash and cash equivalents (Note 4)                                $      817,439 $   3,837,344
Investments (Note 5)                                                   8,698,313     4,243,313
Contributions receivable from insured credit unions                       17,614           992
Note receivable due from NCUA Operating Fund (Note 7)                     18,438        19,779
Premium receivable                                                        12,901           -
Loans receivable (Note 7)                                             10,000,000           -
Assets acquired in assistance to insured credit unions                   204,525       103,175
Fixed assets — net of accumulated depreciation and amortization                58           80
Accrued interest receivable                                               72,356        39,848
Accrued fee receivable                                                       -           1,929
   Total assets                                                   $   19,841,644 $   8,246,460

LIABILITIES AND FUND BALANCE

LIABILITIES
Cash assistance liability                                         $        5,393 $      2,000
Amounts due to insured shareholders of liquidated credit unions           12,192       10,356
Due to NCUA Operating Fund (Note 12)                                       2,257          169
Reserve for losses (Note 9)                                              758,741      278,343
Interest payable                                                           1,302          -
Obligations under capital lease                                              -             89
Note payable (Note 12)                                                10,000,000          -
Accounts payable                                                          27,474           56
    Total liabilities                                                 10,807,359      291,013

Commitments and Contingencies (Note 14)

FUND BALANCE
Insurance fund balance                                                 1,889,798     1,700,003
Insured credit unions’ accumulated contributions (Note 11)             7,067,139     5,977,106
Accumulated other comprehensive income                                    77,348       278,338
   Total fund balance                                                  9,034,285     7,955,447
   Total liabilities and fund balance                             $   19,841,644 $   8,246,460

See accompanying Notes to the Financial Statements




                                                      -3-
NATIONAL CREDIT UNION SHARE INSURANCE FUND

STATEMENTS OF OPERATIONS
FOR THE YEARS ENDED DECEMBER 31, 2009 AND 2008
(Dollars in thousands)

                                                                 2009        2008

REVENUES

Premium income (Note 10)                                   $   727,466 $       -
Investment income                                              188,774     390,922
Interest on note receivable due from related party                 509         807
Interest on loans                                               32,791       1,178
Other income                                                        19       2,752
        Total revenues                                         949,559     395,659

EXPENSES

Employee wages and benefits                                     69,966      60,699
Travel                                                          10,161       8,130
Rent, communications, and utilities                              2,255       2,067
Contracted services                                              4,646       3,698
Interest expense                                                32,791         -
Other                                                           14,805       6,922
Provision for insurance losses                                 625,140     290,354
        Total expenses                                         759,764     371,870

EXCESS OF REVENUES OVER EXPENSES                           $   189,795 $    23,789

See accompanying Notes to the Financial Statements




                                                     -4-
NATIONAL CREDIT UNION SHARE INSURANCE FUND

STATEMENTS OF CHANGES IN FUND BALANCE
FOR THE YEARS ENDED DECEMBER 31, 2009 AND 2008
(Dollars in thousands)

                                                                        Insured        Accumulated
                                                        Insurance    Credit Unions’       Other
                                                          Fund        Accumulated     Comprehensive    Comprehensive
                                                         Balance     Contributions       Income           Income           Total

BALANCE — January 1, 2008                              $ 1,676,214   $    5,585,256   $         -      $         -      $ 7,261,470
                                                                                                                 -
 Contributions from insured credit unions                      -           391,850              -                           391,850

 Excess of revenues over expenses                           23,789              -               -             23,789         23,789

 Other comprehensive income - changes in
   unrealized gain on available for sale investments           -                -           278,338          278,338        278,338
 Comprehensive income                                          -                -               -      $     302,127
BALANCE — December 31, 2008                              1,700,003        5,977,106         278,338    $         -        7,955,447

 Contributions from insured credit unions                      -          1,090,033             -                -        1,090,033

 Excess of revenues over expenses                          189,795              -               -            189,795        189,795

 Other comprehensive income - changes in
   unrealized gain on available for sale investments           -                -          (200,990)        (200,990)      (200,990)
 Comprehensive loss                                            -                -               -      $     (11,195)
BALANCE — December 31, 2009                            $ 1,889,798   $    7,067,139   $      77,348                     $ 9,034,285



See accompanying Notes to the Financial Statements




                                                               -5-
NATIONAL CREDIT UNION SHARE INSURANCE FUND

STATEMENTS OF CASH FLOWS
FOR THE YEARS ENDED DECEMBER 31, 2009 AND 2008
(Dollars in thousands)

                                                                                      2009             2008

CASH FLOWS FROM OPERATING ACTIVITIES:
 Excess of revenues over expenses                                                $     189,795     $      23,789
 Adjustments to reconcile excess of revenues over expenses to cash provided by
  operating activities:
  Depreciation and amortization                                                              82              323
  Amortization of premiums and discounts on investments — net                            78,916           44,465
  Provision for insurance losses                                                        625,140          290,354
  Insurance losses paid, net                                                           (144,742)        (227,791)
  (Increase) decrease in assets:
   Premium receivable                                                                   (12,901)             -
   Assets acquired in assistance to insured credit unions — net                        (101,350)         (37,291)
   Accrued interest receivable                                                          (32,508)          20,203
   Accrued fee receivable                                                                 1,929           (1,929)
  Increase (decrease) in liabilities:
   Cash assistance liability                                                             3,393             2,000
   Amounts due to insured shareholders of liquidated credit unions                       1,836             5,463
   Due to NCUA Operating Fund                                                            2,088              (103)
   Interest payable                                                                      1,302               -
   Due to credit unions                                                                    -             (30,853)
   Accounts payable                                                                     27,418                21
      Net cash provided by operating activities                                        640,398            88,651

CASH FLOWS FROM INVESTING ACTIVITIES:
 Purchases of investments                                                            (6,095,297)       (2,335,125)
 Proceeds from maturities on investments                                              1,360,391         1,800,000
 Proceeds from sales of investments                                                         -           2,500,000
 Capital expenditures                                                                       (60)              -
 Collections on note receivable — NCUA Operating Fund                                     1,341             1,341
      Net cash (used in) provided by investing activities                            (4,733,625)        1,966,216

CASH FLOWS FROM FINANCING ACTIVITIES:
 Contributions from insured credit unions                                             1,073,411          391,012
 Principal payments under capital lease obligation                                          (89)            (351)
       Net cash provided by financing activities                                      1,073,322          390,661

NET (DECREASE) INCREASE IN CASH AND CASH EQUIVALENTS                                 (3,019,905)       2,445,528

CASH AND CASH EQUIVALENTS — Beginning of year                                         3,837,344        1,391,816

CASH AND CASH EQUIVALENTS — End of year                                          $     817,439     $   3,837,344


CASH PAYMENTS FOR INTEREST                                                       $           -     $              7

NON-CASH INVESTING AND FINANCING ACTIVITIES:
 Loans to Corporate Credit Unions (CCUs) financed through CLF borrowings         $   10,000,000    $          -



See accompanying Notes to the Financial Statements.




                                                             -6-
 NATIONAL CREDIT UNION SHARE INSURANCE FUND
 NOTES TO FINANCIAL STATEMENTS
 AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2009 AND 2008


1. ORGANIZATION AND PURPOSE

     OVERVIEW OF THE NATIONAL CREDIT UNION SHARE INSURANCE FUND

     The National Credit Union Share Insurance Fund (“NCUSIF”) was created by Title II of the Federal
     Credit Union Act, 12 U.S.C. 1781 et seq., as amended by section 136(b) of the Emergency
     Economic Stabilization Act of 2008, 12 U.S.C. 5241(b), and the Helping Families Save Their
     Homes Act of 2009, §204, Pub. L. No. 111-22, 123 Stat. 1632, 1648 (2009) (‘Helping Families
     Act’). The NCUSIF was established as a revolving fund in the United States Treasury, under the
     Board of Directors of the National Credit Union Administration (NCUA), for the purpose of
     insuring member share deposits in all federal credit unions and for qualifying state credit unions
     requesting insurance.

     The NCUA exercises direct supervisory authority over federal credit unions and coordinates
     required supervisory involvement with the state chartering authority for state chartered credit unions
     insured by the NCUSIF. Insured credit unions are required to report certain financial and statistical
     information to NCUA on a quarterly basis, and are subject to periodic examination by the NCUA.
     Information derived through the supervisory and examination process provides the NCUSIF with the
     ability to identify credit unions experiencing financial difficulties that may require assistance from
     the NCUSIF.

     Assistance may be in the form of a waiver of statutory reserve requirements, a guarantee account,
     cash assistance, or other such form. In some cases, a merger partner for the credit union may be
     sought. Mergers between financially troubled credit unions and stronger credit unions may also
     require NCUSIF assistance. Merger assistance may be in the form of cash assistance, purchase of
     certain assets by the NCUSIF, and/or guarantees of the values of certain assets (primarily loans).
     When a credit union is no longer able to continue operating and the merger and assistance
     alternatives are not practical, the NCUSIF may liquidate the credit union, pay members’ shares up to
     the maximum insured amount, and dispose of its assets.

     A change in reporting entity, related to certain variable interest entities, has been retrospectively
     presented herein. With this change in reporting entity, the NCUSIF was no longer required to
     consolidate any corporate credit unions.

     Recent Legislation — The Helping Families Act increased deposit insurance coverage to $250,000
     through December 31, 2013, and created the Temporary Corporate Credit Union Stabilization Fund
     (“TCCUSF”), 12 U.S.C. 5241(b), 1790e. The purposes of the TCCUSF are to accrue the losses of
     the Corporate Credit Union (“CCU”) system, and over time, to assess the entire credit union system
     for the recovery of such losses. The act does not permit recovery of losses ahead of funds advanced
     to pay such losses; instead, funds to pay losses are provided through borrowings from the U.S.
     Treasury. NCUA has 28 corporate credit unions which provide liquidity, investment, and payment
     services to natural person credit unions. On June 18, 2009, the NCUA Board approved actions to
     legally obligate the TCCUSF for the costs of stabilizing the CCU system. These actions included
     legally obligating the TCCUSF as the issuer and holder of a $1 billion capital note with U.S. Central
     Federal Credit Union (“USC”), and for all liabilities arising from the Temporary Corporate Credit


                                                     -7-
    Union Share Guarantee Program (“TCCUSGP”) and the Temporary Corporate Credit Union
    Liability Guarantee Program (“TCCULGP”). The TCCUSGP guarantees the entire share amount
    member credit unions have on deposit with CCUs. The TCCULGP guarantees timely payment of
    principal and interest on certain unsecured debt of participating CCUs.

    Sources of Funding — Deposits insured by NCUSIF are backed by the full faith and credit of the
    U.S. Government. NCUSIF has multiple sources of funding. Each insured credit union is required to
    deposit and maintain in the NCUSIF one percent of its insured shares. The NCUA Board may also
    assess premiums to all federally insured credit unions as provided by the Federal Credit Union Act.

    In addition, the NCUSIF has $6 billion in borrowing authority, shared with the TCCUSF, from the
    U.S. Treasury for use in unforeseen emergencies. This borrowing may be temporarily increased to
    an amount not to exceed $30 billion.

    Under the Federal Credit Union Act, NCUSIF also has the ability to borrow from the NCUA Central
    Liquidity Facility (“CLF”). If in the judgment of the NCUA Board, a loan to the NCUSIF is
    required at any time for carrying out the purposes of its programs, the NCUSIF is authorized to
    borrow from the CLF, having access to CLF’s unused borrowing authority.

    Significant Developments — On March 20, 2009, the NCUSIF made two $5 billion liquidity
    stabilization loans to USC and Western Corporate Federal Credit Union (“WesCorp”), respectively,
    with funds borrowed from the CLF. These advances are due to the CLF on December 21, 2010, as
    discussed further below.

2. SIGNIFICANT ACCOUNTING POLICIES

    Basis of Presentation — The NCUSIF has historically prepared its financial statements in
    accordance with accounting principles generally accepted in the United States of America
    (“GAAP”), based on standards issued by the Financial Accounting Standards Board (“FASB”), the
    private sector standards setting body. In October 1999, the American Institute of Certified Public
    Accountants (AICPA) designated the Federal Accounting Standards Advisory Board (“FASAB”) as
    the standards setting body for the establishment of accounting principles generally accepted in the
    United States of America with respect to the financial statements of Federal government entities.
    The FASAB has indicated that the preparation of financial statements based upon standards
    promulgated by the FASB may be regarded as being in accordance with GAAP for those Federal
    entities, which includes the NCUSIF, that have issued financial statements based upon FASB
    standards in the past. To be consistent with historical reporting, the NCUSIF’s financial statements
    are presented in accordance with accounting and financial reporting standards promulgated by the
    FASB. These statements include the accounts of the NCUSIF and are consolidated as necessary with
    any variable interest entities for which the NCUSIF is deemed to be the primary beneficiary. As
    explained herein, no entities were consolidated in either 2009 or 2008.

    Basis of Accounting — The financial statements are presented in accordance with the accrual basis
    of accounting. As such, the NCUSIF recognizes income when earned and expenses when incurred.
    The NCUSIF recognizes loans upon issuance and related repayments when received. The NCUSIF
    investment transactions are recognized on trade date. The NCUSIF recognizes borrowings when
    received and repayments when made. In addition, the NCUSIF recognizes interest on loans, interest
    on investments, and revenue from premium assessments when earned and recognizes interest on
    borrowings and expenses when incurred.




                                                 -8-
Assets Acquired in Assistance to Insured Credit Unions — The NCUSIF acquires the assets of
liquidating credit unions pending their ultimate disposition. To assist in the merger of credit unions,
the NCUSIF may purchase certain credit union assets. In addition, the NCUSIF may provide cash
assistance by acquiring nonperforming assets of a credit union experiencing financial difficulty.
These acquired assets are recorded by the NCUSIF at their estimated net realizable value.

Use of Estimates — The preparation of financial statements in conformity with accounting
principles generally accepted in the United States of America requires management to make
estimates and assumptions that affect the reported amounts of assets and liabilities, disclosure of
contingent assets and liabilities at the date of the financial statements, and the amounts of revenues
and expenses reported during that period. Actual results could differ from estimates. Significant
items subject to those estimates and assumptions include reserve for losses and contingencies. The
current economic environment has increased the degree of uncertainty inherent in those estimates
and assumptions.

Cash and Cash Equivalents — The Federal Credit Union Act permits the NCUSIF to make
investments in United States Government securities or securities guaranteed as to both principal and
interest by the United States Government. Cash equivalents are liquid investments with original
maturities of three months or less.

Loans and Note Receivable — Notes and loans receivable relate to advances and loans to credit
unions and the National Credit Union Administration Operating Fund. They bear interest based on
rates set by U.S. Treasury and are recorded at face value. The NCUSIF does not intend to sell these
receivables.

An allowance for doubtful accounts is the NCUSIF’s best estimate of the amount of credit losses in
the existing notes. The allowance is determined on an individual note basis upon review of any note
that has a payment past due for over 60 days. A note is impaired if it is probable that the NCUSIF
will not collect all principal and interest contractually due. The impairment, if any, is measured
based on the present value of expected future cash flows discounted at the note’s effective interest
rate. As of December 31, 2009 and 2008, the NCUSIF had not recorded any allowances for notes or
loans receivable nor recognized any amounts to be impaired, as the NCUSIF expects to recover
amounts across the notes and loans receivable as contractually agreed upon.

The NCUSIF does not accrue interest when a note has been considered impaired. When ultimate
collectability of the principal balance of the impaired note is in doubt, all cash receipts on impaired
notes are applied to reduce the principal amount of such notes until the principal has been recovered
and is recognized as interest income thereafter. Impairment losses are charged against the allowance
and increases in the allowance are charged to bad debt expense. Notes are written off against the
allowance when all possible means of collection have been exhausted and the potential for recovery
is considered remote.




                                               -9-
Variable Interest Entities — An entity is referred to as a variable interest entity (“VIE”) if it meets
the criteria outlined in ASC 810, Consolidation (formerly FASB Interpretation No. 46 (R),
Consolidation of Variable interest Entities (revised December 2003) (FIN 46(R)), which are: (1) the
entity has equity that is insufficient to permit the entity to finance its activities without additional
subordinated financial support from other parties, or (2) the entity has equity investors that cannot
make significant decisions about the entity’s operations or that do not absorb their proportionate
share of the expected losses or receive the expected returns of the entity.

In addition, a VIE must be consolidated by the reporting entity that is deemed to be the primary
beneficiary of the VIE, which is the party involved with the VIE that has the majority of the
expected losses or a majority of the expected residual returns or both.

The NCUSIF has variable interests in natural person credit unions (“NPCU”s) that may be deemed
VIEs. These entities are regularly monitored by the NCUSIF to determine their status and whether
any reconsideration events have occurred that could cause its primary beneficiary status to change.
These events include changes in contractual arrangements in a manner that reallocates expected
losses and residual returns among the variable interest holders and providing support to an entity
that results in an implicit variable interest.

Other Receivables

Accrued Interest Receivable
The NCUSIF recognizes accrued interest receivable for amounts of interest that have been
contractually earned but not yet received.

Contributions Receivable from Insured Credit Unions
Each insured credit union pays to the Fund a deposit amount equal to 1% of the credit union’s
insured shares. On an annual basis the NCUSIF recalculates the appropriate deposit amount for each
credit union’s insured shares and reconciles the calculated deposit amount to the current deposit
amount held by the NCUSIF. Any deposit shortfalls are billed to the credit unions to true-up their
current deposited amounts, thereby returning deposit levels to the requisite 1% of insured shares.
Any deposit surpluses over the requisite 1% of insured shares are refunded back to the credit unions.
For credit unions with more than $50 million in insured shares, this true-up process is performed
twice a year.

Premium Receivable
NCUSIF has the statutory authority according to the Federal Credit Union Act of 2003 (revised in
2007 and 2009) Section 1782 “Administration of the Insurance Fund” to assess the federally insured
credit unions for a premium charge. The NCUSIF may assess each insured credit union a premium
charge for insurance in an amount stated as a percentage of insured shares outstanding as of the most
recently ended reporting period, if the NCUSIF’s equity ratio is less than 1.3%. Premium receivable
refers to premium charge amounts that have been billed to federally insured credit unions, but have
not been received as of the balance sheet date.

Investments — Investment securities at December 31, 2009 and 2008, consist solely of U.S.
Treasuries. Effective December 31, 2008, all holdings in the NCUSIF investment portfolio were
transferred from held-to-maturity to available-for-sale. Management determined that NCUSIF could
no longer assert that it had the positive intent and ability to hold these securities to maturity, as they
might be sold in response to a liquidity need.




                                               - 10 -
Available-for-sale securities are recorded at fair value. Unrealized holding gains and losses are
excluded from earnings and reported as a separate component of accumulated other comprehensive
income until realized. Realized gains and losses from the sale of available-for-sale securities are
determined on a specific identification basis.

A decline in the market value of any available-for-sale security below cost that is deemed to be
other-than-temporary results in an impairment to reduce the carrying amount to fair value. The
impairment is charged against earnings and a new cost basis for the security is thereafter established.
To determine whether an impairment is other-than-temporary, the NCUSIF takes into consideration
whether it has the ability and intent to hold a particular investment long enough until a market price
recovery occurs, which entails consideration of evidence to indicate the cost of the investment is
recoverable. Evidence considered in this assessment includes the reasons for the impairment, the
severity and duration of the impairment, expected changes in value of the investment subsequent to
year-end, forecasted performance of the investee, and the general market condition in the geographic
area or industry the investee operates in.

Premiums and discounts are amortized or accreted over the life of the related available-for-sale
security as an adjustment to yield using the effective interest method. The aforementioned
amortization and accretion of a premium and discount, respectively, is recorded in the following
manner: (1) for premiums, the amortization of that premium is recorded to a valuation adjustment
account (contra-asset), which is netted against the security’s carrying amount to bring the recorded
amount of the investment back to down to par, (2) for discounts, the accretion of a discount is
recorded directly to the security’s carrying amount to bring the recorded amount of the investment
back up to par. Dividend and interest income are recognized when earned.

Fixed Assets — Property, plant, equipment, and related intangible assets, subject to amortization,
are carried at amortized cost. Depreciation and amortization are recognized over the useful life.

Long-Lived Assets — In accordance with FASB ASC 360, “Accounting for the Impairment or
Disposal of Long-Lived Assets”, long-lived assets, such as property, plant, and equipment, and
purchased intangible assets subject to amortization, are reviewed for impairment whenever events or
changes in circumstances indicate that the carrying amount of an asset may not be recoverable. If
circumstances require a long-lived asset or asset group to be tested for possible impairment, NCUA
initially performs a comparison between the undiscounted cash flows expected to be generated by
that asset or asset group to its carrying value. If the carrying value of the long-lived asset or asset
group is not recoverable on an undiscounted cash flow basis, an impairment is recognized to the
extent that the carrying value exceeds its fair value. Fair value is determined through various
valuation techniques including discounted cash flow models, quoted market values, and third party
independent appraisals, as considered necessary.

Amounts due to Insured Shareholders of Liquidated Credit Unions — The NCUSIF recognizes
a liability for monies to be paid to insured shareholders of failed, federally insured credit unions.

Revenue Recognition — The NCUSIF recognizes revenue when interest on investments or loans
are earned and when assessments to credit unions have been invoiced.

Reserve for Losses — The NCUSIF records a contingent liability and a loss provision for losses
incurred in the resolution of troubled institutions. Through NCUA’s supervision process, NCUA
applies a supervisory rating system to assess each credit union’s relative health in the adequacy of
Capital, the quality of Assets, the capability of Management, the quality and level of Earnings, and
the adequacy of Liquidity (“CAMEL”), applying a value ranging from “1” (strongest) to “5”


                                              - 11 -
    (weakest). The contingent liability is derived by applying expected failures based on CAMEL
    ratings and historical loss rates. In addition credit union-specific analysis is performed on those
    credit unions where failure is imminent or where additional information is available that may affect
    the estimate of losses.

    Income Taxes — The NCUSIF is exempt from federal income taxes under Section 501(c)(1) of the
    Internal Revenue Code.

    Commitments and Contingencies — Liabilities for general loss contingencies arising from claims,
    assessments, litigation, fines, and penalties and other sources, are recorded when it is probable that a
    liability has been incurred and the amount of the assessment and/or remediation can be reasonably
    estimated. Legal costs incurred in connection with loss contingencies are expensed as incurred.

    Fair Value of Financial Instruments — The NCUSIF adopted ASC 820-10, Fair Value
    Measurements and Disclosures. The statements defines fair value, expands disclosure requirements
    around fair value and specifies a hierarchy of valuation techniques based on whether the inputs to
    those valuation techniques are observable or unobservable. Observable inputs reflect market data
    obtained from independent sources, while unobservable inputs reflect the NCUSIF’s market
    assumptions. This hierarchy requires the NCUSIF to use observable market data, when available,
    and to minimize the use of unobservable inputs when determining fair value.

    Related Party Transactions — The NCUSIF is one of the five funds under the common control of
    the NCUA Board. The NCUSIF had related party transactions during 2009 with the NCUA
    Operating Fund, the CLF and the TCCUSF, as discussed further within the notes to the financial
    statements.

3. NEWLY IMPLEMENTED ACCOUNTING STANDARDS

    In 2009, NCUSIF adopted an amendment to the accounting standards on the GAAP hierarchy
    (FASB ASC 105). This amendment changes the GAAP hierarchy used in the preparation of
    financial statements of non-governmental entities. It establishes the FASB Accounting Standards
    Codification as the source of authoritative accounting principles recognized by the FASB to be
    applied by non-governmental entities in the preparation of financial statements in conformity with
    GAAP in the United States. Rules and interpretive releases of the U.S. Securities and Exchange
    Commission (SEC) under authority of federal securities laws are also sources of authoritative GAAP
    for SEC registrants. The adoption of this amendment had no impact to the financial statements.

    In 2009, the NCUSIF adopted the amendment to the accounting standards for subsequent events
    (FASB ASC 855). This amendment establishes general standards of accounting for, and disclosing
    events that occur after the balance sheet date but before financial statements are issued or are
    available to be issued. In particular, this statement sets forth (a) the period after the balance sheet
    date during which management of a reporting entity should evaluate events or transactions that may
    occur for potential recognition or disclosure in the financial statements, (b) the circumstances under
    which an entity should recognize events or transactions occurring after the balance sheet date in its
    financial statements, and (c) the disclosures that an entity should make about events or transactions
    that occurred after the balance sheet date. It also requires entities to disclose the date through which
    subsequent events were evaluated, and determine whether that date is the date that financial
    statements were issued or the date they were available to be issued. The adoption of this amendment
    did not have a material impact on the financial statements.




                                                  - 12 -
4. CASH AND CASH EQUIVALENTS

    NCUSIF’s cash and cash equivalents at December 31, 2009 and 2008, are as follows:

                                                 2009                 2008
    (Dollars in thousands)
    Deposits with U.S. Treasury            $             217 $                  384
    U.S. Treasury overnight investments              817,222               3,836,960
    Total cash and cash equivalents        $         817,439 $             3,837,344



5. INVESTMENTS

    The Federal Credit Union Act, Section 1783 (c) as amended provides guidance regarding holding
    U.S. Treasury securities. The NCUSIF currently does not hold any corporate debt or equity
    securities. All investments at the NCUSIF pertain to U.S. Treasury securities of varying maturities.

    In addition, the NCUSIF does not maintain any investments in securities that have been classified as
    trading or held-to-maturity as per FASB ASC 320, “Investments — Debt and Equity Securities.”

    The carrying amount, gross unrealized holding gains, gross unrealized holding losses, and fair value
    of available-for-sale debt securities at December 31, 2009 and 2008, were as follows:


                                                                Gross
                                                              Unrealized   Gross Unrealized
                                           Carrying Amount   Holding Gains Holding (Losses)         Fair value
    (Dollars in thousands)
    At December 31, 2009
       Available for sale:
               U.S. Treasury securities    $     8,620,965   $     127,388    $        (50,040) $       8,698,313


    At December 31, 2008
       Available for sale:
             U.S. Treasury securities      $     3,964,975   $     278,338    $               - $       4,243,313



    Maturities of debt securities classified as available-for-sale at December 31 were as follows:

                                                                             Fair value
    (Dollars in thousands)
    Available for sale:
       Due prior to one year                                           $          1,470,781
       Due after one year through five years                                      6,788,485
       Due after five years through ten years                                       439,047
                                                                       $          8,698,313




                                                    - 13 -
    Proceeds from the sale of investment securities classified as available-for-sale were $0 and
    $2.5 billion in 2009 and 2008, respectively; gross realized gains included in investment income in
    2009 and 2008 were $0 and $106 million, respectively; and there were no realized losses in 2009 or
    2008.

    Gross unrealized losses on investment securities, for which other-than-temporary impairments have
    not been recognized, in addition to the fair values of those securities, aggregated by investment
    classification and length of time the investments have been in a loss position, at December 31, 2009,
    were as follows:

                                                              Duration of Losses - Less than 12 months
                                                        Unrealized         Unrealized
                                                          losses              gains              Fair value
    (Dollars in thousands)
    Available for sale:
                      U.S. Treasury securities     $            (50,040) $        127,388     $           8,698,313



    The unrealized losses on investments in U.S. Treasury securities, included in the table above, were
    the result of lower interest rates. The contractual terms of those investments do not permit the issuer
    to settle the securities at a price less than the amortized cost of the investment. Because the NCUSIF
    asserts the ability and intent to hold these investments until a market price recovery occurs or until
    maturity, these investments are not considered other-than-temporarily-impaired.

6. FAIR VALUE MEASUREMENTS AND DISCLOSURES

    Fair Value of Financial Instruments
    The NCUA adopted ASC 820-10, Fair Value Measurements and Disclosures. The statement defines
    fair value, expands disclosure requirements around fair value and specifies a hierarchy of valuation
    techniques based on whether the inputs to those valuation techniques are observable or
    unobservable. Observable inputs reflect market data obtained from independent sources, while
    unobservable inputs reflect NCUSIF’s market assumptions.

    Cash and Cash Equivalents, Receivables and Payables, Due to the NCUA Operating Fund, and
    Amounts Due to Insured Shareholders of Liquidated Credit Unions
    The carrying amounts, at face value or cost plus accrued interest, approximate fair value because of
    the short maturity of these instruments.

    Investment Securities
    Debt securities classified as available-for-sale are measured using quoted market prices multiplied
    by the quantity held when quoted market prices are available. These instruments are determined to
    be Level 1 inputs.

    The following tables present the carrying amounts and estimated fair values of NCUSIF’s financial
    instruments at December 31, 2009 and 2008. FASB ASC 825, “Financial Instruments”, defines fair
    value as either the price received to sell an asset or the price paid to transfer a liability, as part of an
    orderly transaction between market participants at the measurement date.




                                                       - 14 -
The fair values of the financial instruments shown in the below table as of December 31, 2009 and
2008, represents management’s best estimates for either the amount that would be received to sell
those assets, or the amount that would be paid to transfer those liabilities in an orderly transaction
between market participants at that date. Those fair value measurements maximize the use of
observable inputs. However, in situations where there is little, if any, market activity for the asset or
liability at the measurement date, the fair value measurement reflects the judgment by the NCUSIF,
regarding the assumptions market participants would consider, in pricing the asset or liability. The
NCUSIF’s judgment, in this instance, was developed through utilizing the best information available
at the time, under the given circumstances.

(Dollars in thousands)
                                                                               2009                                2008
                                                                  Carrying value       Fair value      Carrying value     Fair value
Financial assets:
  Cash and cash equivalents                                   $          817,439          817,439           3,837,344     3,837,344
  Investments                                                          8,698,313        8,698,313           4,243,313     4,243,313
  Contributions receivable from insured credit unions                     17,614           17,614                 992           992
  Due from NCUA Operating Fund                                            18,438           18,438              19,779        19,779
  Premium receivable                                                      12,901           12,901                 -             -
  Loans receivable                                                    10,000,000       10,000,000                 -             -
  Assets acquired in assistance
     to insured credit unions                                           152,423           152,423               71,216       71,216
  Accrued interest receivable                                            72,356            72,356               39,848       39,848
  Accrued fee receivable                                                   -                 -                   1,929        1,929
Financial liabilities:
  Cash assistance liability                                                5,393               5,393             2,000        2,000
  Amounts due to insured shareholders of
    liquidated credit unions                                              12,192           12,192               10,356       10,356
  Due to NCUA Operating Fund                                               2,257            2,257                  169          169
  Interest payable                                                         1,302            1,302                 -             -
  Obligations under capital leases                                          -                -                      89            89
  Note payable                                                        10,000,000       10,000,000                 -             -
  Accounts payable                                                        27,474           27,474                   56            56



(Dollars in thousands)                                                                 Fair value measurements at
                                                                                          reporting date using
                                                                            Quoted prices
                                                                              in active        Significant
                                                                             markets for           other        Significant
                                                                              identical        observable      unobservable
                                                            December 31,        assets            inputs          inputs
                                                                2009          (Level 1)         (Level 2)        (Level 3)
Assets:
  Investments                                           $      8,698,313           8,698,313                -                 -




                                                        - 15 -
     (Dollars in thousands)                                                   Fair value measurements at
                                                                                 reporting date using
                                                                   Quoted prices
                                                                     in active        Significant
                                                                    markets for           other        Significant
                                                                     identical        observable      unobservable
                                                   December 31,        assets            inputs          inputs
                                                       2008          (Level 1)         (Level 2)        (Level 3)
     Assets:
       Investments                             $       4,243,313      4,243,313                 -               -



    The carrying amounts shown in the tables above are included on the balance sheets under the
    indicated captions.

7. LOANS AND NOTES RECEIVABLE

    U.S. Central and Wescorp Liquidity Stabilization Loans
    On March 20, 2009, the NCUSIF made two $5.0 billion liquidity stabilization loans (with funds
    borrowed from the CLF) to USC and WesCorp respectively. These advances were issued for
    settlement on March 20, 2009, by the NCUSIF and are fully collateralized by the assets of the
    borrowers referred to herein. Both advances have a fixed interest rate of 0.528% as of December 31,
    2009. Interest payments are scheduled for June 21, 2010, in the amount of $13.1 million (per
    advance) and for December 21, 2010, in the amount of $13.2 million (per advance), with the
    principal due on December 21, 2010, in the amount of $5.0 billion (per advance).

    The notes were originally issued to both USC and WesCorp on March 20, 2009, by the NCUSIF,
    with a maturity date of June 22, 2009 (with principal and interest due on that date). Upon maturity,
    both notes were extended with a maturity date of December 21, 2009. Upon maturity on
    December 21, 2009, both notes were extended once more for a full year, with a current maturity date
    of December 21, 2010.

    National Credit Union Administration Operating Fund
    In 1992, the NCUSIF lent approximately $42 million to the NCUA Operating Fund, pursuant to a
    thirty-year note secured by the NCUA premises in Alexandria, Virginia. Interest income recognized
    was approximately $509 thousand and $807 thousand for 2009 and 2008, respectively. The note
    receivable balances at December 31, 2009 and 2008, were approximately $18.4 million and
    $19.8 million, respectively.

    The variable rate on the note is equal to NCUSIF’s prior-month yield on investments. The average
    interest rates during 2009 and 2008, were 2.56 % and 3.95%, respectively. The interest rates at
    December 31, 2009 and 2008, were 2.06 % and 3.49%, respectively.




                                                   - 16 -
    The above note requires principal repayments at December 31 as follows (in thousands):

     Years Ending                                                                                Secured
     December 31                                                                                Term Note

     2010                                                                                       $ 1,341
     2011                                                                                         1,341
     2012                                                                                         1,341
     2013                                                                                         1,341
     2014                                                                                         1,341
     Thereafter                                                                                  11,733

     Total                                                                                      $ 18,438


8. VARIABLE INTEREST ENTITIES

    National Person Credit Unions
    During the year ended December 31, 2009, NCUA held variable interests in the natural person credit
    unions (“NPCUs”) it supervises and regulates in the form of insurance on member deposits up to
    $250,000. Reconsideration events (e.g. conservatorships) could result in such credit unions being
    deemed VIEs and NCUA becoming the primary beneficiary of the NPCU VIEs. Total insured shares
    for NPCUs, or maximum exposure to loss, as of December 31, 2009 and 2008, were $724.8 billion
    and $658.9 billion, respectively.

    NCUA has documented herein the process for identifying needed reserves, both specific and general,
    to cover expected losses due to insurance on member deposits. Expected losses are only a fraction of
    the maximum exposure to loss; approximately 1.0 percent for 2009 and less than 0.5 percent for
    2008. The total reserves for identified and anticipated losses resulting from NPCU failures are
    $758.7 million and $278.3 million at December 31, 2009 and 2008, respectively.

    Corporate Credit Unions
    During 2008 and through June 2009, there was significant discussion at NCUA regarding the
    variable interests held in corporate credit unions (CCUs”), which resulted from NCUA actions to
    stabilize the CCU system. It was concluded that for 2008 the NCUSIF would be the primary
    beneficiary of certain identified VIEs based on variable interests held by the NCUSIF at
    December 31, 2008, and therefore, the NCUSIF would have been required to consolidate such VIEs
    in its financial statements for the year ended December 31, 2008. However, based on the actions
    discussed below, it was concluded that the TCCUSF would be the primary beneficiary of these same
    VIEs based on variable interests held by the TCCUSF at December 31, 2009. The shift in primary
    beneficiary from 2008 to 2009 was the result of the June 18, 2009, actions of the NCUA Board to
    transfer the legal obligations related to CCUs from the NCUSIF to the TCCUSF. Such actions
    relieved the NCUSIF for the costs and related obligations of stabilizing the CCU system, as provided
    by Public Law 111-22, which was enacted May 20, 2009.

    Given the shift in 2009 for the responsibility for corporate stabilization efforts from the NCUSIF to
    the TCCUSF, the NCUSIF has applied ASC 250 Accounting Changes and Error Correction”, as
    discussed in the next paragraph.




                                                  - 17 -
    On June 18, 2009, the NCUA Board approved actions to legally transfer corporate stabilization
    efforts to the TCCUSF and relieve the NCUSIF of such activities. Accordingly NCUSIF is no longer
    required to consolidate any corporate credit unions. Furthermore, because the NCUSIF and the
    TCCUSF are under common control, this resulted in a change in reporting entity. This change in
    reporting entity has been applied retrospectively to 2008. Accordingly, the accompanying financial
    statements for the year ended December 31, 2008 do not reflect the consolidation of any CCUs.

9. RESERVE FOR LOSSES

    Management identifies credit unions experiencing financial difficulty through NCUA’s supervisory
    and examination process. Management on a specified case basis determines the estimated losses
    from these supervised credit unions. Management also evaluates overall economic trends and
    monitors potential system-wide risk factors, such as increasing levels of consumer debt,
    bankruptcies, and delinquencies. NCUA applies a rating system to assess a credit union’s financial
    condition and operations in the areas of Capital Adequacy, Asset Quality, Management, Earnings,
    and Asset/Liability Management (“CAMEL”). The CAMEL Rating System is a tool to measure risk
    and allocate resources for supervisory purposes. NCUA periodically reviews the CAMEL Rating
    System to respond to continuing economic and regulatory changes in the credit union industry. For
    general reserve requirements, risk profile categories are established based on the CAMEL ratings of
    problem credit unions, and probable failure and loss rates are applied based on historical data. The
    anticipated losses are net of estimated recoveries from the disposition of the assets of failed credit
    unions.

    Total insured shares for natural person credit unions as of December 31, 2009 and 2008, were
    $724.8 billion and $658.9 billion, respectively. The total reserves for identified and anticipated
    losses resulting from supervised credit unions’ failures are $758.7 million and $278.3 million at
    December 31, 2009 and 2008, respectively.

    In exercising its supervisory function, the NCUSIF will at times, extend guarantees of assets
    (primarily loans) to third-party purchasers or to existing credit unions to facilitate mergers. The
    NCUSIF would be obligated upon nonperformance. No such guarantees were outstanding at
    December 31, 2009 and 2008. Estimated losses resulting from asset and merger guarantees are
    evaluated by management on a case-by-case basis.

    In addition, the NCUSIF may grant a guaranteed line-of-credit to a third-party credit provider, such
    as a corporate credit union or bank, if a particular credit union were to have a current or immediate
    liquidity concern and the credit provider has refused to extend credit without a guarantee. The
    NCUSIF would thereby be obligated if the credit union failed to perform. Total line-of-credit
    guarantees of credit unions at December 31, 2009 and 2008, are approximately $1.0 million and
    $50.0 million, respectively. The total balances outstanding under these line-of-credit guarantees at
    December 31, 2009 and 2008, are approximately $0.0 and $22.0 million, respectively. The carrying
    amount of the liability as of December 31, 2009 and 2008, for the outstanding NCUSIF guarantees is
    $18.5 thousand and $1.1 million, respectively. The guarantees expire in March of 2010.

    On rare occasions, the NCUSIF provides indemnifications, as part of a merger assistance agreement,
    to acquiring credit unions. Such indemnifications make the NCUSIF contingently liable based on the
    outcome of any legal actions. There was one such indemnification contingency at December 31,
    2009, for $37,000, which expires in December 2010. As of December 2008, there was one
    indemnification contingency for $37,000, which expires in December 2010.




                                                   - 18 -
     The activity in the reserve for losses from supervised credit unions for the years ended December 31,
     2009 and 2008, was as follows:

                                                                           2009              2008
     (Dollars in thousands)

     Beginning balance                                                $    278,343       $ 215,780
     Insurance losses paid                                                (161,685)       (284,626)
     Recoveries                                                             16,943          56,835
     Provision for insurance losses                                        625,140         290,354

     Ending balance                                                   $    758,741       $ 278,343

     The increase in the provision for insurance losses is due to the following (in thousands):

     Specific reserves — increased from $46,043 at December 31, 2008, to $161,841 at December 31,
     2009.

     General reserves — increased from $232,300 at December 31, 2008, to $596,900 at December 31,
     2009. Reserve amounts pertaining to the CCU system included $3.7 million for 2008. In 2009, the
     amount pertaining to the CCU system was $0, as all of the reserves pertaining to the corporate credit
     unions were obligated to the TCCUSF.

     In addition to these recorded contingent liabilities, additional adverse performance in the financial
     services industry could result in additional loss to the NCUSIF. The ultimate losses for supervised
     credit unions will largely depend upon future economic and market conditions and accordingly,
     could differ significantly from initial estimates.

10. PREMIUM INCOME

     The fund may assess each insured credit union a premium charge for insurance in an amount stated
     as a percentage of insured shares outstanding as of the most recently ended reporting period if the
     Fund’s equity ratio is less than 1.3%. When the Board projects that the equity ratio will, within six
     months, fall below 1.2%, the Board shall establish and implement a restoration plan within 90 days,
     which meets the requirements and conditions that the Board determined appropriate. In order to
     meet the requirements established by the Board, the plan must provide that the equity ratio will meet
     or exceed the minimum amount specified before the end of the 8-year period beginning upon the
     implementation of the plan (or such longer period as the Board may determine to be necessary due
     to extraordinary circumstances). In November 2009, the NCUA Board assessed a .1027 percent
     premium of insured shares totaling $727.5 million.

11. INSURED CREDIT UNIONS’ ACCUMULATED CONTRIBUTIONS

     In 1998, the Federal Credit Union Act was amended to mandate changes to the NCUSIF’s
     capitalization provisions effective January 1, 2001. 12 U.S.C. 1782(a). The Credit Union
     Membership Access Act of 1998 (CUMAA) mandated changes to the NCUSIF’s capitalization
     provisions effective January 1, 2000. Each insured credit union shall pay to and maintain with the
     NCUSIF a deposit in an amount equaling 1% of the credit union’s insured shares. The amount of
     each insured credit union’s deposit shall be adjusted as follows, in accordance with procedures
     determined by the NCUA, to reflect changes in the credit union’s insured shares: (i) annually, in the
     case of an insured credit union with total assets of not more than $50 million; and (ii) semiannually,


                                                   - 19 -
     in the case of an insured credit union with total assets of $50 million or more. The annual and
     semiannual adjustments are based on member share deposits outstanding as of December 31 of the
     preceding year and June 30 of the current year, respectively. The 1% contribution will be returned to
     the insured credit union in the event that its insurance coverage is terminated, or is obtained from
     another source, or the operations of the NCUSIF are transferred from the NCUA.

     Beginning in 2000, the CUMAA mandates that dividends are determined from specific ratios, which
     are based upon year-end reports of insured shares. Accordingly, dividends associated with insured
     shares at year-end are declared and paid in the subsequent year.

     In December 2007, the NCUA set the normal operating level at 1.30%. The calculated equity ratios
     at December 31, 2009 and 2008, were 1.23% and 1.26%, respectively.

     Total insured shares as of December 31, 2009 and 2008, were $724.8 billion and $658.9 billion,
     respectively. The equity ratio for 2008 was calculated based on an insured share base of $611.6
     billion. Although deposit insurance coverage was increased from $100,000 to $250,000, the
     calculation for the equity ratio was based on the $100,000 level due to the temporary nature of the
     increase in insurance coverage. Insurance coverage at the $250,000 level was subsequently extended
     to December 31, 2013.

12. RELATED PARTY TRANSACTIONS

     Central Liquidity Facility
     On March 19, 2009, the NCUA Board took steps to stabilize the corporate credit union system when
     it placed USC and WesCorp into conservatorship. The NCUSIF has in place with the CLF, a
     Funding Commitment and Agreement and a Short-Term Revolving Promissory Note dated
     March 20, 2009, to fund $20.0 billion with a final maturity date of any advance at December 31,
     2010. There was $10.0 billion remaining on this commitment as of December 31, 2009. CLF
     approved an advance of $10.0 billion to NCUSIF in order for NCUSIF to make $5.0 billion in
     liquidity stabilization loans to both USC and WesCorp. The notes were originally issued to both
     USC and WesCorp on March 20, 2009, by the NCUSIF, with a maturity date of June 21, 2009 (with
     principal and interest due on that date). Upon maturity, both notes were extended with a maturity
     date of December 21, 2009. Upon maturity on December 21, 2009, both notes were extended once
     more for a full year, with a current maturity date of December 21, 2010. The advance bears interest
     at a rate of 0.528% per annum at December 31, 2009.

     NCUA Operating Fund (OF)
     Certain administrative services are provided to the NCUSIF by the OF. The OF charges NCUSIF for
     these services based upon an annual allocation factor approved by the NCUA Board and derived
     from a study of actual usage. As of December 31, 2009 and 2008, the NCUSIF had accrued
     $2.3 million and $169,000, respectively, in amounts due to the NCUA Operating Fund. The
     allocation factor was 53.8% to NCUSIF for 2009 and 52.0% for 2008. The cost of the services
     allocated to NCUSIF, which totaled approximately $90.2 million and $79.4 million for 2009 and
     2008, respectively, is reflected as an addition to the corresponding expenses in the accompanying
     financial statements.

     The NCUSIF issued a secured term note in 1992 to fund the costs of constructing a building in 1993
     for the OF. The amount funded through the note was approximately $42.0 million. Interest costs
     incurred were $509,000 and $807,000 for 2009 and 2008, respectively. The note payable balances at
     December 31, 2009 and 2008 were approximately $18.4 million and $19.8 million, respectively.




                                                  - 20 -
     The variable rate on the note is equal to NCUSIF’s prior-month yield on investments. The average
     interest rates during 2009 and 2008, were 2.56 % and 3.95%, respectively. The interest rates at
     December 31, 2009 and 2008, were 2.06 % and 3.49%, respectively.

     Temporary Corporate Credit Union Stabilization Fund (“TCCUSF”)
     On June 18, 2009, the NCUA Board approved actions to legally obligate the TCCUSF, and thereby
     relieve the NCUSIF, for the costs of stabilizing the CCU system as previously described herein. As a
     result, the status of issuer and holder of the Capital Note was legally obligated to the TCCUSF and
     relieved from the NCUSIF. The Board also approved to legally obligate the TCCUSF for the liability
     arising from the TCCUSGP and TCCULGP; both programs having also been relieved from the
     NCUSIF.

13. CONCENTRATIONS

     The NCUSIF has the following concentrations of risk: 10 of the largest natural person credit unions
     hold 13.6 percent of the total assets within the credit union system and account for 13.0 percent of
     the contributed capital within the credit union system. Real estate secured loans are the largest single
     asset type within the natural person credit union system, accounting for 35.0 percent of total assets.
     The states of California, Florida, Arizona, and Nevada present a credit concentration risk accounting
     for 22.0 percent of the total real estate loans outstanding and 31 percent of total delinquent loans.

14. COMMITMENTS AND CONTINGENCIES

     The Fund is currently a party to a number of disputes that involve or may involve litigation. In the
     opinion of management, the ultimate liability with respect to any other disputes, if any, will not be
     material to the Fund’s financial position.

15. SUBSEQUENT EVENTS

     Subsequent events have been evaluated through June 10, 2010, which is the date the financial
     statements were available to be issued. There have been no activities that would materially affect
     financial statement balances as of December 31, 2009.




                                                   - 21 -
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




            Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General, National Credit Union Administration and
the Board of Directors, National Credit Union Administration:

We have audited the balance sheet of the National Credit Union Share Insurance Fund (NCUSIF) as of
December 31, 2009, and the related statements of operations, changes in fund balance, and cash flows for
the year then ended (hereinafter referred to as “financial statements”), and have issued our report thereon
dated June 11, 2010.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement.

The management of the NCUSIF is responsible for establishing and maintaining effective internal control.
In planning and performing our fiscal year 2009 audit, we considered the NCUSIF’s internal control over
financial reporting by obtaining an understanding of the NCUSIF’s internal control, determining whether
internal controls had been placed in operation, assessing control risk, and performing tests of controls as a
basis for designing our auditing procedures for the purpose of expressing our opinion on the financial
statements. To achieve this purpose, we did not test all internal controls relevant to operating objectives as
broadly defined by the Federal Managers’ Financial Integrity Act of 1982. The objective of our audit was
not to express an opinion on the effectiveness of the NCUSIF’s internal control over financial reporting.
Accordingly, we do not express an opinion on the effectiveness of the NCUSIF’s internal control over
financial reporting.

Our consideration of internal control over financial reporting was for the limited purpose described in the
preceding paragraph and was not designed to identify all deficiencies in the internal control over financial
reporting that might be deficiencies, significant deficiencies, or material weaknesses.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A significant deficiency is a deficiency, or a
combination of deficiencies, in internal control that is less severe than a material weakness, yet important
enough to merit attention by those charged with governance. A material weakness is a deficiency, or
combination of deficiencies, in internal control, such that there is a reasonable possibility that a material
misstatement of the entity’s financial statements will not be prevented, or detected and corrected on a
timely basis.




                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
National Credit Union Share Insurance Fund
June 11, 2010
Page 2 of 2


In our fiscal year 2009 audit, we did not identify any deficiencies in internal control over financial
reporting that we consider to be material weaknesses, as defined above. However, we identified a certain
deficiency in internal control over financial reporting that we consider to be a significant deficiency that is
described in Exhibit I. Exhibit III presents the status of the prior year material weakness.

The NCUSIF’s responses to the finding identified in our audit are presented in Exhibit II. We did not audit
the NCUSIF’s response and, accordingly, we express no opinion on it.

We noted certain additional matters that we have reported to management of the NCUSIF in a separate
letter dated June 11, 2010.

This report is intended solely for the information and use of the addressees, NCUSIF’s management, OMB,
the U.S. Government Accountability Office, and the U.S. Congress and is not intended to be and should
not be used by anyone other than these specified parties.




June 11, 2010
                                                                                                     Exhibit I


                    NATIONAL CREDIT UNION – SHARE INSURANCE FUND

                                      SIGNIFICANT DEFICIENCY



Introduction

This exhibit describes the significant deficiency noted during our audit as of and for the year ended
December 31, 2009, and our recommendations thereon. The National Credit Union Share Insurance Fund
(the SIF) management’s response to this finding is presented in Exhibit II.

Improvements Needed in Financial Accounting and Reporting Process

The SIF does not have sufficient staff resources with the experience in technical accounting and reporting
requirements that the entity requires to consistently perform certain internal control activities, particularly
those related to the preparation and review of the financial statements. For example, we noted:

1   A lack of documentation of control activities. The SIF does not have procedures in place that require
    review and approval of the journal entries and related supporting documentation because the journal
    entries that we tested did not have evidence that the journal entries were reviewed and approved by
    someone other than the preparer.

2   Lack of formal policies and procedures that require periodic reassessment of the adequacy and
    propriety of required disclosure and that also would stipulate the review process and require
    secondary reviews and approvals of the financial statements and related supporting documentation.

3   Supervisory reviews that were nonetheless performed were not entirely effective in identifying
    improper financial statement presentation and missing disclosures. In part, the individuals compiling
    the financial statements did not possess sufficient technical knowledge and/or institutional expertise
    that would enable effective performance of such preparation and reviews. For example, the draft
    financial statements prepared for the year ended December 31, 2009 did not properly identify and
    present comprehensive income and its related components in the statement of fund balance and
    comprehensive income. Additionally, such draft financial statements also improperly aggregated
    certain items on the statement of cash flows to comprise both non-cash reconciling items and actual
    cash disbursements. Additionally, there were several occurrences of inconsistencies, in similarly or
    identically described amounts, both between the basic financial statements and the amounts in the
    note disclosures and internally within the notes. As a result of our observations, management
    analyzed and adjusted the financial report.

Office of Management and Budget (OMB) Circular No. A-123, Management Accountability and Control,
defines management’s responsibility and provides guidance to Federal managers on improving the
accountability and effectiveness of Federal programs and operations by establishing, assessing,
correcting, and reporting on internal control. Management controls are the organization policies and
procedures used to reasonably ensure that (i) programs achieve their intended results; (ii) resources are
used consistent with agency mission; (iii) programs and resources are protected from waste, fraud, and
mismanagement; (iv) laws and regulations are followed; and (v) reliable and timely information is
obtained, maintained, reported and used for decision making. Further, OMB Circular No. A-123
elaborate on both general attributes and specific controls that are essential for effective management
controls. Management is responsible for developing control activities, which are the policies, procedures,
techniques, and mechanisms that enforce management’s directives and help ensure actions address risks.
                                                     I-1 

 
                                                                                                Exhibit I


The activities include reviews by management at the functional or activity level, proper execution of
transactions and events, accurate and timely recording of transactions and events, and appropriate
documentation of transactions and internal control. Without such effective controls, there is an increased
risk of material misstatements to the financial statements and related disclosures. 

Recommendations

We recommend that the NCUA modify accounting policies, procedures and controls as follows:

   Reassess on a comprehensive basis the staff capabilities and operational and reporting processes to
    determine the areas where new and/or revised controls are warranted. This is especially vital when
    viewed within the context of the migration to the new financial accounting system. Consider also the
    control environment to determine the necessary requirements to satisfy the criteria referenced above.

   Match qualified personnel who are regularly trained and who possess the unique skills necessary to
    account for and report NCUA transactions consistent with the requirements of U.S. generally
    accepted accounting principles to the key NCUA process and control activities.

   Improve the overall core competencies of key financial management and personnel through training
    that is sufficiently robust and focused on the areas of need.

   Adopt formal methodology to regularly (at least annually) evaluate and update the Fund’s policies and
    procedures to adapt to significant operational changes and adopt accounting pronouncement as such
    changes occur. Where transactions are similar across the NCUA, it may be advantageous to prepare
    combined accounting policies and pro forma disclosures. 




                                                   I-2 

 
                        National Credit Union Administration

                                                                                   Exhibit II

                NATIONAL CREDIT UNION SHARE INSURANCE FUND
                  MANAGEMENT RESPONSE TO AUDIT FINDINGS


Findings: Improvements Needed in Financial Accounting and Reporting Process

The OCFO experienced a significant increased level of work during 2009, including
implementing a new financial management system, adding the Temporary Corporate
Credit Union Stabilization Fund, assessing insured credit unions for the collection of a
premium, and addressing a considerable increase in the level of complexity in accounting
transactions and reporting.

The financial statement audit, which resulted in an unqualified opinion, identified findings
related to needed improvement in the National Credit Union Share Insurance Fund’s
(NCUSIF) financial accounting and reporting processes. NCUA agrees that they warrant
management’s attention.

We believe the findings can best be categorized as:
   1. Lack of documentary evidence of supervisory review, especially over journal entries;
   2. Comprehensiveness of documentation with accounting policies and procedures; and
   3. Weaknesses with conforming our annual financial statements into the form and
      content required by Generally Accepted Accounting Principles.

We will implement corrective action to address these findings taking into consideration the
agency’s resources and priorities.

   1. Lack of documentary evidence of supervisory review, especially over journal entries:

       As a small agency with limited resources, NCUA is still required to assess its
       internal control structure with the goal of ensuring that risks are appropriately
       mitigated. As part of implementing our new financial management system, we will
       review controls around journal entries and consider establishing a threshold for
       documenting supervisory review of journal entries above a certain dollar threshold
       or unusual in nature.

   2. Comprehensiveness of documentation with accounting policies and procedures:

       Audit findings highlighted the lack of comprehensiveness of our accounting policies
       and procedures as well as available documentation to evidence compliance. In
       response, NCUA will review controls where the availability of documentation
       appeared limited and strengthen processes accordingly. NCUA will also start
       building a repository of accounting and internal control policies and practices, which
       can be readily accessed by all NCUA staff.




  1775 Duke Street - Alexandria, VA 22314-3428 - 703-518-6300
3. Weaknesses with conforming our annual financial statements into the form and
   content required by generally accepted accounting principles:

   NCUA is a small Federal agency and must focus its resources on essential functions.
   Financial accounting and reporting is viewed by executive agency management as
   important and essential. Financial highlights of all funds are made available to all
   at public Board meetings and on the agency’s web site. The findings cited by our
   auditors relate to our annual process of preparing the financial statements in the
   form and content required by generally accepted accounting principles.           To
   strengthen our financial reporting, we will review and refine our internal control
   processes and evaluate training requirements. We will also hire additional staff
   with requisite skills.




                                        2
                                                                                              Exhibit III


                   NATIONAL CREDIT UNION – SHARE INSURANCE FUND

                       STATUS OF PRIOR YEAR MATERIAL WEAKNESS


Prior Year Material Weakness

During the fiscal year 2008 financial statement audit, the prior year auditors noted a material weakness
regarding the National Credit Union Share Insurance Fund (NCUSIF) accounting and reporting for the
consolidation of certain variable interest entities.

Current Year Status of the Prior Year Material Weakness

During fiscal year 2009, management determined that due to the change in reporting entity, the NCUSIF
no longer should consolidate the variable interest entities identified during the 2008 financial statement
audit. Certain accounting and reporting deficiencies continued to be observed in 2009 as described in
Exhibit I.




                                                  III-1 

 
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                   Independent Auditors’ Report on Compliance and Other Matters


Inspector General, National Credit Union Administration and
the Board of Directors, National Credit Union Administration:

We have audited the balance sheet of the National Credit Union Share Insurance Fund (NCUSIF) as of
December 31, 2009, and the related statements of operations, changes in fund balance, and cash flows for
the year then ended (hereinafter referred to as “financial statements”), and have issued our report thereon
dated June 11, 2010.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement.

The management of the NCUSIF is responsible for complying with laws, regulations, and contracts
applicable to the NCUSIF. As part of obtaining reasonable assurance about whether the NCUSIF’s
financial statements are free of material misstatement, we performed tests of the NCUSIF’s compliance
with certain provisions of laws, regulations, and contracts, noncompliance with which could have a direct
and material effect on the determination of the financial statement amounts, and certain provisions of other
laws and regulations specified in OMB Bulletin No. 07-04. We limited our tests of compliance to the
provisions described in the preceding sentence, and we did not test compliance with all laws, regulations,
and contracts applicable to the NCUSIF. However, providing an opinion on compliance with those
provisions was not an objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance discussed in the third paragraph of this report disclosed no instances
of noncompliance or other matters that are required to be reported herein under Government Auditing
Standards or OMB Bulletin No. 07-04.

This report is intended solely for the information and use of the addressees, NCUSIF’s management, OMB,
the U.S. Government Accountability Office, and the U.S. Congress and is not intended to be and should
not be used by anyone other than these specified parties.




June 11, 2010




                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER
  FINANCIAL REPORTING AND ON COMPLIANCE AND OTHER
  MATTERS BASED UPON THE AUDIT PERFORMED IN ACCORDANCE
  WITH GOVERNMENT AUDITING STANDARDS


To the Inspector General of
National Credit Union Administration:

We have audited the financial statements of the National Credit Union Share Insurance Fund (NCUSIF)
as of and for the year ended December 31, 2008, and have issued our report thereon dated June 10 , 2010.
We conducted our audit in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States.

Internal Control Over Financial Reporting

In planning and performing our audit, we considered NCUSIF’s internal control over financial reporting
as a basis for designing our auditing procedures for the purpose of expressing our opinion on the financial
statements, but not for the purpose of expressing an opinion on the effectiveness of NCUSIF’s internal
control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of
NCUSIF’s internal control over financial reporting.

Our consideration of internal control over financial reporting was for the limited purpose described in the
preceding paragraph and was not designed to identify all deficiencies in internal control over financial
reporting that might be significant deficiencies or material weaknesses and therefore, there can be no
assurance that all deficiencies, significant deficiencies or material weaknesses have been identified.
However, as described in the accompanying schedule of findings and responses, we identified a certain
deficiency in internal control over financial reporting that we consider to be a material weakness.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned function, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement
of the entity’s financial statements will not be prevented, or detected and corrected on a timely basis. We
consider the deficiency described in the accompanying schedule of findings and responses to be a
material weakness. See finding 2008-01.
Compliance and Other Matters

As part of obtaining reasonable assurance about whether NCUSIF’s financial statements are free of
material misstatement, we performed tests of its compliance with certain provisions of laws, regulations,
contracts, and grant agreements, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts. However, providing an opinion on compliance with those
provisions was not an objective of our audit, and accordingly, we do not express such an opinion. The
results of our tests disclosed no instances of noncompliance that are required to be reported under
Government Auditing Standards.

This report is intended solely for the information and use of the Inspector General, the Board of the
National Credit Union Administration, and the management of the National Credit Union Share Insurance
Fund and is not intended to be, and should not be, used by anyone other than these specified parties.




June 10, 2010
NATIONAL CREDIT UNION SHARE INSURANCE FUND

SCHEDULE OF FINDINGS AND RESPONSES
AS OF AND FOR THE YEAR ENDED DECEMBER 31, 2008


FINDING 2008-01

Condition: National Credit Union Share Insurance Fund (NCUSIF) failed to properly identify the
appropriate accounting treatment under Financial Accounting Standards Board (FASB) Accounting
Standards Codification (ASC) 810, Consolidation (formerly, FASB Interpretation No. 46 (R),
Consolidation of Variable Interest Entities with respect to its variable interests in certain corporate credit
unions.

Criteria: An entity is a variable interest entity (VIE) if it meets the criteria outlined in ASC 810, which
are: (1) the entity has equity that is insufficient to permit the entity to finance its activities without
additional subordinated financial support from other parties, or (2) the entity has equity investors that
cannot make significant decisions about the entity’s operations or that do not absorb their proportionate
share of the expected losses or receive the expected returns of the entity. A VIE must be consolidated by
the reporting entity that is deemed to be the primary beneficiary of the VIE, which is the party involved
with the VIE that has the majority of the expected losses or a majority of the expected residual returns or
both. NCUSIF was deemed to be the primary beneficiary of certain VIE’s at December 31, 2008.

Effect: NCUSIF should have consolidated the VIE’s in which it was the primary beneficiary as of
December 31, 2008. However, effective June 18, 2009, NCUSIF legally transferred its obligations with
respect to the corporate credit unions to a newly formed entity, the Temporary Corporate Credit Union
Stabilization Fund (TCCUSF). As a result, effective with that date, NCUSIF was no longer required to
consolidate VIE’s in accordance with ASC 810. Because NCUSIF and TCCUSF are under common
control, this has resulted in a change in reporting entity in accordance with FASB ASC 250, Accounting
Changes and Error Corrections; accordingly, TCCUSF is now considered the primary beneficiary.

Cause: This condition results from a deficiency in the design of internal control as NCUSIF did not
initially identify the correct accounting treatment for its variable interests in certain corporate credit
unions.

Monetary Impact: There is no monetary impact associated with this finding due to the fact that
subsequent to December 31, 2008, NCUSIF legally transferred its obligations with respect to the
corporate credit unions to a newly formed entity.

Recommendation: NCUSIF should consider all relevant accounting literature as it prepares its financial
statements to ensure accuracy in accounting and presentation.

Management Response: NCUA is a small Federal agency and must focus its resources on essential
functions. Financial accounting and reporting is viewed by executive agency management as important
and essential. Financial highlights of all funds are made available to all at public Board meetings and on
the agency’s web site. The finding cited by our auditors relates to our annual process of preparing the
financial statements in the form and content required by generally accepted accounting principles. To
strengthen our financial reporting, we will review and refine our internal control processes and evaluate
training requirements. We will also hire additional staff with requisite skills.
National Credit Union
Administration Central
Liquidity Facility
Financial Statement as of and for the
Year Ended December 31, 2009

And Independent Auditors’ Reports
             NATIONAL CREDIT UNION ADMINISTRATION
                  CENTRAL LIQUIDITY FACILITY
                   As of and for the Year Ended December 31, 2009
                          (Dollars in thousands, except share data)




TABLE OF CONTENTS

                                                                      Page



Independent Auditors’ Report on Financial Statements                     3

Financial Statement As Of December 31, 2009:

     Balance Sheet                                                       4

     Statement of Operations                                             5

     Statement of Members’ Equity                                        6

     Statement of Cash Flows                                             7

     Notes to Financial Statement                                       8–14

 Independent Auditors’ Report on Internal Control over
     Financial Reporting

 Independent Auditors’ Report on Compliance and Other Matters




                                            -2-
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                        Independent Auditors’ Report on Financial Statements


Inspector General, National Credit Union Administration and
the Board of Directors, National Credit Union Administration:

We have audited the accompanying balance sheet of the National Credit Union Administration Central
Liquidity Facility (CLF) as of December 31, 2009, and the related statements of operations, members’
equity, and cash flows for the year then ended (hereinafter referred to as “financial statements”). These
financial statements are the responsibility of the CLF’s management. Our responsibility is to express an
opinion on these financial statements based on our audit.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement. An audit includes consideration of internal
control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the CLF’s internal
control over financial reporting. Accordingly, we express no such opinion. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial statements,
assessing the accounting principles used and significant estimates made by management, as well as
evaluating the overall financial statement presentation. We believe that our audit provides a reasonable
basis for our opinion.

In our opinion, the 2009 financial statements referred to above present fairly, in all material respects, the
financial position of the National Credit Union Administration Central Liquidity Facility as of
December 31, 2009, and the results of its operations and its cash flows for the year then ended in
conformity with U.S. generally accepted accounting principles.

In accordance with Government Auditing Standards, we have also issued our reports dated April 28, 2010,
on our consideration of the CLF’s internal control over financial reporting and our tests of its compliance
with certain provisions of laws, regulations, contracts and other matters. The purpose of those reports is to
describe the scope of our testing of internal control over financial reporting and compliance and the results
of that testing, and not to provide an opinion on the internal control over financial reporting or on
compliance. Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards and should be read in conjunction with this report in assessing the results of our audit.




April 28, 2010


                                                                       -3-
                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
                      NATIONAL CREDIT UNION ADMINISTRATION
                           CENTRAL LIQUIDITY FACILITY
                                           As of December 31, 2009
                                      (Dollars in thousands, except share data)




BALANCE SHEET


                                                                 2009
ASSETS

Cash and cash equivalents (notes 4 and 6)             $                    5,900
Investments held to maturity
   (Net of $2,169 amortized discount,
   fair value of $1,832,955) (notes 5 and 6)                           1,828,831
Loans to members (notes 6 and 7)                                       8,312,751
Loan to related party (notes 6 and 12)                                10,000,000
Accrued interest receivable                                               23,591

TOTAL                                                 $               20,171,073


LIABILITIES AND MEMBERS’ EQUITY

LIABILITIES:
 Accounts payable and other liabilities               $                      171
 Dividends payable                                                         1,375
 Federal Financing Bank notes payable (notes 6                        18,312,751
  and 11)
 Accrued interest payable                                                 23,561
 Member deposits (notes 6 and 9)                                             363

      Total liabilities                                               18,338,221

MEMBERS’ EQUITY
 Capital stock – required ($50 par value;
  authorized: 72,749,116 shares; issued and
  outstanding: 36,374,558 shares) (note 8)                              1,818,728
 Retained earnings                                                         14,124

      Total members’ equity                                             1,832,852

TOTAL                                                 $               20,171,073


See accompanying notes to financial statements.




                                                          -4-
                    NATIONAL CREDIT UNION ADMINISTRATION
                         CENTRAL LIQUIDITY FACILITY
                                  For the Year Ended December 31, 2009
                                     (Dollars in thousands, except share data)


STATEMENT OF OPERATIONS


                                                                                 2009

REVENUE:
 Investment income                                                          $      21,468
 Interest on loans                                                                 85,649
 Gain on sale of investments                                                           43

       Total revenue:                                                             107,160

EXPENSES: (note 12)
 Personnel services                                                                     205
 Personnel benefits                                                                      48
 Other general and administrative expenses                                               81

       Total operating expenses                                                         334

 Interest – Federal Financing Bank notes payable (note 11)                         85,649
 Interest – liquidity reserve                                                           7

       Total expenses                                                              85,990

NET INCOME                                                                  $      21,170


See accompanying notes to financial statements.




                                                       -5-
                    NATIONAL CREDIT UNION ADMINISTRATION
                         CENTRAL LIQUIDITY FACILITY
                                  For the Year Ended December 31, 2009
                                      (Dollars in thousands, except share data)




STATEMENT OF MEMBERS’ EQUITY



                                                      Capital Stock
                                                                                  Shareholder   Retained
                                               Shares            Amount                                        Total
                                                                                     Loan       Earnings

BALANCE – December 31, 2008                  34,154,171        $ 1,707,710        (1,719,574)   11,408     $     (456)

 Issuance of required capital stock            2,221,840              111,092                                  111,092

 Redemption of required capital stock             (1,453)                (74)                                      (74)

 Repayment of shareholder loan (note 8)                                            1,719,574                1,719,574

 Dividends declared ($0.51/share) (notes
  8 and 9)                                                                                      (18,454)       (18,454)

 Net income                                                                                       21,170        21,170


BALANCE – December 31, 2009                  36,374,558         $1,818,728                 -      14,124   $1,832,852




See accompanying notes to financial statements.




                                                        -6-
                    NATIONAL CREDIT UNION ADMINISTRATION
                         CENTRAL LIQUIDITY FACILITY
                                  For the Year Ended December 31, 2009
                                      (Dollars in thousands, except share data)


STATEMENT OF CASH FLOWS


                                                                                    2009

CASH FLOWS FROM OPERATING ACTIVITIES:
 Net income                                                                   $        21, 170
 Adjustments to reconcile net income
  to net cash provided by operating activities:
    Increase in accrued interest receivable                                            (8,922)
    Increase in accounts payable and other liabilities                                  21,445

       Net cash provided by operating activities                                        33,693

CASH FLOWS FROM INVESTING ACTIVITIES:
 Purchase of investments                                                           ( 1,828,831)
 Loan principal disbursements - net                                               (16,727,273)

       Net cash used in investing activities                                      (18,556,104)

CASH FLOWS FROM FINANCING ACTIVITIES:
 Issuance of required capital stock                                                   111,092
 Dividends paid (notes 8 and 9)                                                      (29,448)
 Redemption of required capital stock                                                    (74)
 Withdrawal of member deposits                                                          (719)
 Repayment of shareholder loan                                                      1,719,574
 Additions to member deposits                                                             596
 Proceeds from FFB borrowings - net                                                16,727,273

       Net cash provided by financing activities                                   18,528,294

NET INCREASE IN CASH AND CASH EQUIVALENTS                                                  5,883

CASH AND CASH EQUIVALENTS– Beginning of year                                                 17

CASH AND CASH EQUIVALENTS – End of year                                                    5,900

SUPPLEMENTAL DISCLOSURE OF CASH FLOW
 INFORMATION – Cash paid during the year for interest                         $         64,250




See accompanying notes to financial statements.




                                                         -7-
                        NATIONAL CREDIT UNION ADMINISTRATION
                             CENTRAL LIQUIDITY FACILITY
                                Notes to Financial Statement
                                As of and for the Year Ended December 31, 2009
                                         (Dollars in thousands, except share data)



1.   ORGANIZATION AND PURPOSE

     The National Credit Union Administration Central Liquidity Facility (CLF) was created by the National Credit
     Union Central Liquidity Facility Act (the “Act”). CLF is designated as a mixed-ownership government corporation
     under the Government Corporation Control Act. CLF exists within the National Credit Union Administration
     (NCUA) and is managed by the National Credit Union Administration Board. CLF became operational on
     October 1, 1979.

     CLF was created to improve the general financial stability of credit unions by serving as a liquidity lender to credit
     unions experiencing unusual or unexpected liquidity shortfalls. CLF accomplishes its purpose by borrowing funds,
     subject to certain statutory limitations, when a liquidity need arises.

     CLF is subject to various Federal laws and regulations. CLF’s operating budget requires Congressional approval,
     and CLF may not make loans to members for the purpose of expanding credit union loan portfolios. CLF’s
     investments are restricted to obligations of the U.S. Government and its agencies, deposits in federally insured
     financial institutions, and shares and deposits in credit unions. Borrowing is limited by statute to 12 times the
     subscribed capital stock and surplus.

2.   SIGNIFICANT ACCOUNTING POLICIES

      (a) Basis of Presentation — CLF has historically prepared its financial statements in accordance with accounting
          principles generally accepted in the United States of America (GAAP), based on standards issued by the
          Financial Accounting Standards Board (FASB), the private-sector standards-setting body. In October 1999, the
          American Institute of Certified Public Accountants (AICPA) designated the Federal Accounting Standards
          Advisory Board (FASAB) as the standards-setting body for the establishment of accounting principles
          generally accepted in the United States of America with respect to the financial statements of Federal
          government entities. The FASAB has indicated that financial statements prepared based upon standards
          promulgated by the FASB may also be regarded as in accordance with GAAP for those Federal entities, such
          as the CLF, that have issued financial statements based upon FASB standards in the past. Accordingly,
          consistent with historical reporting, the CLF’s financial statements are presented in accordance with
          accounting and financial reporting standards promulgated by the FASB.

      (b) Basis of Accounting — CLF maintains its accounting records on the accrual basis of accounting. CLF
          recognizes loans when they are issued and related repayments when they are received. CLF records investment
          transactions when they are made. CLF recognizes borrowings when they are received and repayments when
          they are made. In addition, CLF recognizes interest on loans and interest on investments when they are earned
          and recognizes interest on borrowings when it is incurred. CLF recognizes expenses when incurred. CLF
          accrues and records dividends on capital stock monthly and pays dividends quarterly.

      (c) Use of Estimates — The preparation of financial statements in conformity with GAAP requires management
          to make estimates and assumptions that affect the reported amounts of assets and liabilities and disclosures of
          contingent assets and liabilities at the date of the financial statements and the reported amounts of revenues
          and expenses during the reporting period. Actual results could differ from management’s estimates.

      (d) Cash and Cash Equivalents — CLF considers all highly liquid investments with a maturity of three months
          or less when purchased to be cash equivalents.




                                                            -8-
                 NATIONAL CREDIT UNION ADMINISTRATION
                      CENTRAL LIQUIDITY FACILITY
                         Notes to Financial Statement
                         As of and for the Year Ended December 31, 2009
                                  (Dollars in thousands, except share data)



(e) Investments — By statute, CLF investments are restricted to obligations of the U. S. Government and its
    agencies, deposits in federally insured financial institutions, and shares and deposits in credit unions. All
    investments are classified as held-to-maturity under FASB ASC 320-10-25-1, Classification of Investment
    Securities, as CLF has the intent and ability to hold these investments until maturity. Accordingly, CLF reports
    investments at amortized cost. Amortized cost is the face value of the securities, plus the unamortized premium
    or less the unamortized discount.

    Premiums and discounts are amortized or accreted over the life of the related held-to-maturity investment as an
    adjustment to yield using the effective interest method. Such amortization and accretion is included in the
    “Investment income” line item in the statements of operations.

(f) Loans and Allowance for Loan Losses — Loans, when made to members, are on a short-term or long-term
    basis. Loans are recorded at the amount disbursed and bear interest at the higher of: (1) the Federal Financing
    Bank advance rate, or (2) the Federal Reserve Bank discount window Primary Credit rate. By regulation,
    member liquidity needs loans are made on a fully secured basis. CLF obtains a security interest in the assets of
    the borrower equal to at least 110 percent of all amounts due. For member loans issued under the Credit Union
    System Investment Program (CU SIP) and Credit Union Homeowners Affordability Relief Program (CU
    HARP), CLF obtains a security interest in the assets of the borrower equal to 200 percent of the amount due
    under the program. CLF does not currently charge fees associated with its lending activities. In determining the
    allowance for loan losses, when applicable, CLF evaluates the collectability of its loans to members through
    examination of the financial condition of the individual borrowing credit unions and the credit union industry
    in general.

    CLF management reviews the allowance for loan losses annually. A loan is considered impaired if it is
    probable that CLF will not collect all principal and interest actually due. The impairment is measured based
    on the present value of expected future cash flows discounted at the loan’s effective interest rate. CLF does
    not accrue interest when a loan is considered impaired. When ultimate collectability of the principal balance
    of the impaired loan is in doubt, all cash receipts on the impaired loan are applied to reduce the principal of
    such loan until the principal has been recovered and are recognized as interest income thereafter. Impairment
    losses are charged against the allowance and increases in the allowance are charged to bad debt expense.
    Loans are written off against the allowance when all possible means of collection have been exhausted and the
    potential for recovery is considered remote. There was no allowance and no past due loans at December 31,
    2009, and there were no write offs for fiscal year 2009. CLF management considers write offs remote because
    all member loans must be collateralized with a minimum of 110 percent of the outstanding amount.

(g) Borrowings — CLF’s borrowings are recorded when received and do not have premiums or discounts.

(h) Tax-Exempt Status — CLF is exempt from tax in accordance with section 312 of the Federal Credit Union
    Act (FCU) - 12 U.S.C. §1795k.

(i) Related Parties — CLF exists within the National Credit Union Administration (NCUA) and is managed by
    the NCUA Board. The NCUA’s Operating Fund (OF) provides CLF with information technology and other
    services and supplies. In addition, the NCUA’s OF pays CLF’s employees’ salaries and benefits as well as
    CLF’s portion of monthly building operating costs. The allocation formula to calculate these expenses is
    based on the number of full-time employees of the respective entities and the estimated amount of time CLF
    employees spend performing CLF functions.

    The National Credit Union Share Insurance Fund (NCUSIF) is also a related party. CLF has the statutory
    authority to advance funds to the NCUSIF and advances were made in 2009 (note 12).



                                                    -9-
                        NATIONAL CREDIT UNION ADMINISTRATION
                             CENTRAL LIQUIDITY FACILITY
                                Notes to Financial Statement
                               As of and for the Year Ended December 31, 2009
                                         (Dollars in thousands, except share data)

3.   RECENTLY ISSUED ACCOUNTING STANDARDS

     Effective December 31, 2009 CLF adopted FASB issued Statement of Financial Accounting Standards (SFAS) No.
     168, The FASB Accounting Standards Codification and the Hierarchy of Generally Accepted Accounting Principles.
     SFAS No. 168 established the FASB Accounting Standards Codification (ASC) as the sole source of authoritative
     accounting principles recognized by the FASB to be applied by nonpublic entities in the preparation of financial
     statements in conformity with GAAP (the GAAP hierarchy).

     Effective December 31, 2009, CLF adopted FASB ASC 855, Subsequent Events (precodification FASB SFAS No.
     165, Subsequent Events). FASB ASC 855 establishes general standards of accounting for and disclosure of events
     that occur after the balance sheet date but before financial statements are issued or are available to be issued. FASB
     ASC 855 defines the period after the balance sheet date during which management shall evaluate events or
     transactions that may occur for potential recognition or disclosure, the circumstances under which an organization
     shall recognize events occurring after the balance sheet date and the disclosures that an organization shall make
     about those events or transactions. FASB ASC 855 defines two types of subsequent events. The first type consists
     of events or transactions that provide additional evidence about conditions that existed at the date of the balance
     sheet, including the estimates inherent in the process of preparing financial statements (i.e., nonrecognized event).

4.   CASH AND CASH EQUIVALENTS

     CLF’s cash and cash equivalents at December 31, 2009 are as follows:

                                                                                     2009

         U.S. Treasury Securities                                                $       5,261
         USC Daily Transaction Share Account                                               622
         PNC Bank                                                                           17

                Total                                                            $       5,900


     The U.S. Central Federal Credit Union (USC) Daily Transaction Share Account is a variable rate share account,
     used primarily for CLF clearing transactions. The account is available only to CLF. U.S. Treasury securities had an
     initial term of less than three months when purchased.

5.   INVESTMENTS

     The carrying amount, gross unrealized holding gains, gross unrealized losses and the fair value of held-to-maturity
     debt securities at December 31, 2009 were as follows:

                                                                                   Gross
                                                               Gross
                                          Carrying                               Unrealized
                                                            Unrealized                                  Fair Value
                                          Amount                                  Holding
                                                           Holding Gains
                                                                                  Losses
        U.S. Treasury Securities:        $1,828,831                  4,335             (211)                1,832,955

               Total                     $1,828,831                  4,335              (211)               1,832,955

      Maturities of debt securities classified as held-to-maturity were as follows at December 31, 2009:




                                                           - 10 -
                        NATIONAL CREDIT UNION ADMINISTRATION
                             CENTRAL LIQUIDITY FACILITY
                                Notes to Financial Statement
                                As of and for the Year Ended December 31, 2009
                                         (Dollars in thousands, except share data)

                                                        Carrying Amount                Fair Value
        Due in one year or less                        $             993,122       $          994,036
        Due after one year through five years                        832,721                  836,083
        Due after five years through ten years                         2,988                    2,836
              Total                                    $         1,828,831         $        1,832,955


6.   FAIR VALUE MEASUREMENTS — FASB ASC 825, Financial Instruments, defines fair value as the price that
     would be received to sell an asset or paid to transfer a liability in an orderly transaction between market participants
     at the measurement date. The following methods and assumptions were used in estimating the fair value disclosures
     for financial instruments:

     Cash and cash equivalents — The carrying amounts for cash and cash equivalents approximate fair value.

     Investments held to maturity — The fair value for investments is determined using the quoted market prices at the
     reporting date (observable inputs).

     Loans — For loans advanced to member credit unions and the loan to related party, the carrying amounts
     approximate fair value because all loans have a maturity of one year or less.

     Federal Financing Bank Notes Payable — For notes issued to the Federal Financing Bank (FFB), when applicable,
     the carrying amounts approximate fair value because all borrowings have a maturity of one year or less.

     Member Deposits — Funds maintained with the CLF in excess of required capital amounts are recorded as member
     deposits. These deposits are due upon demand, and therefore carrying amounts approximate the fair value.

     Other — Accrued interest receivable, accounts payable and other liabilities, dividends payable, and accrued interest
     payable are recorded at book values, which approximate the respective fair values.


                                                           Carrying
                                                                                   Fair Value
         Financial Instruments                              Value

         Cash and cash equivalents                     $         5,900         $            5,900
         Investments held to maturity                        1,828,831                  1,832,955
         Loans to members                                    8,312,751                  8,312,751
         Loan to related party                              10,000,000                 10,000,000
         Accrued interest receivable                            23,591                     23,591
         Accounts payable and other liabilities                    171                        171
         Dividends payable                                       1,375                      1,375
         Federal Financing Bank notes payable               18,312,751                 18,312,751
         Accrued interest payable                               23,561                     23,561
         Member Deposits                                           363                        363


7.   LOANS TO MEMBERS

     CLF has in place form documents that reflect the repayment, security, and credit reporting terms applicable to all
     CLF loans. CLF makes loan disbursements through the corporate credit union network and relies on members of the
     corporate network to service loans it has made. CLF relies on USC as its agent, as master servicer for all loans;


                                                            - 11 -
                       NATIONAL CREDIT UNION ADMINISTRATION
                            CENTRAL LIQUIDITY FACILITY
                               Notes to Financial Statement
                               As of and for the Year Ended December 31, 2009
                                           (Dollars in thousands, except share data)

     USC relies on the appropriate corporate credit union as its agent to service loans owed by its natural person credit
     union members. CLF requires each corporate credit union acting as loan servicer to subordinate any claims it might
     have in the collateral owned by natural person credit unions that may have been pledged to secure an advance from
     the corporate.

     In January 2009, the NCUA Board changed the methodology by which CLF funded natural person credit union
     loans by modifying the agreement between CLF and USC and creating a new assignment agreement between CLF
     and USC. This change was effective for all CLF loans made after January 20, 2009. Prior to the changes, loan
     proceeds were passed through USC to the corporate credit union and ultimately to the natural person credit union.
     Loan documents were signed at each level such that the natural person credit union borrower was indebted to its
     corporate credit union which, in turn was indebted to USC, which in turn was obligated to repay the advance to the
     CLF. The NCUA Board approved streamlining this relationship so that the indebtedness of the natural person credit
     union to the CLF is direct.

     During 2009, the NCUA Board obtained concurrence from the Secretary of the Treasury and the Board of
     Governors of the Federal Reserve System on its determination that extensions of credit to members of CLF for
     purposes other than the statutorily defined liquidity needs are in the national economic interest with the
     understanding that extensions of credit will not be made or used for a purpose that conflicts with the FCU Act. CLF
     began making other than liquidity needs (OTLN) based loans in January 2009.

     The two initiatives for other than liquidity needs (OTLN) lending are the Credit Union System Investment Program
     (CU SIP), and the Credit Union Homeowners Affordability Relief Program (CU HARP). There were 3 offering
     periods for CU SIP and one offering period for CU HARP. Funds for both programs come from the FFB
     borrowings. The loan amounts, maturity dates, and interest rates are presented following.

                                             Amount             Maturity Date          Interest Rate

                  CU SIP 1             $        4,801,984             1/8/2010           0.5650%
                  CU SIP 2                      2,915,062             2/12/2010          0.7060%
                  CU SIP 3                        500,000             3/12/2010          0.8290%
                  CU HARP                          95,705            12/31/2010          0.5740%
                       Total           $        8,312,751


      As of December 31, 2009, $4,897,689 in loans to members was due from USC for the first CU SIP offering (CU
      SIP 1) and the CU HARP and $3,415,062 was due from natural person credit unions.

8.   CAPITAL STOCK

     Membership in CLF is voluntary and is open to all credit unions that purchase a prescribed amount of capital stock.
     CLF capital stock is non-voting and shares have a par value of $50. There are two types of membership, regular
     (natural person credit unions) and agent (corporate credit unions). Natural person credit unions may borrow from
     CLF directly as a regular member or indirectly through an agent member.

     The capital stock account represents subscriptions remitted to CLF by member credit unions. Regular members’
     required subscription amounts equal one-half of one percent of their paid-in and unimpaired capital and surplus,
     one-half of which is required to be remitted to CLF. Agent members’ required subscription amounts equal one-half
     of one percent of the paid-in and unimpaired capital and surplus of all of the credit unions served by the agent
     member, one-half of which is required to be remitted to CLF. In both cases, member credit unions are required to
     hold the remaining one-half in liquid assets subject to call by the NCUA Board. These unremitted subscriptions are
     not reflected in CLF’s financial statements. Subscriptions are adjusted annually to reflect changes in the member



                                                            - 12 -
                       NATIONAL CREDIT UNION ADMINISTRATION
                            CENTRAL LIQUIDITY FACILITY
                               Notes to Financial Statement
                               As of and for the Year Ended December 31, 2009
                                        (Dollars in thousands, except share data)

     credit unions’ paid-in and unimpaired capital and surplus. Dividends are non-cumulative and declared and paid on
     only required capital stock.

     During fiscal year 1984, CLF accepted a membership request from USC on behalf of its corporate credit union
     members. At December 31, 2009 $1,750,551 of CLF capital stock was purchased by USC on behalf of its member
     corporate credit union members. USC has 26 corporate credit union members as of December 31, 2009.

     A member of CLF whose capital stock account constitutes less than five percent of the total capital stock
     outstanding may withdraw from membership in CLF six months after notifying the NCUA Board of its intention to
     do so. A member whose capital stock account constitutes five percent or more of the total capital stock outstanding
     may withdraw from membership in CLF twenty-four months after notifying the NCUA Board of its intention. At
     December 31, 2009, CLF had one member withdrawal request of $128 pending.

     The required capital stock is redeemable upon demand by the members. The redemption is not mandatory, as
     defined in FASB ASC 480-10-25-7, Mandatorily Redeemable Financial Instruments; therefore capital stock is
     classified in permanent equity.

     CLF’s capital stock accounts are composed of the following at December 31, 2009:

                                                Shares                     Amount

             Regular members                        1,363,531         $           68,177
             Agent members                         35,011,027                  1,750,551

                   Total                           36,374,558         $        1,818,728


     Dividends on capital stock are declared based on available earnings and the dividend policy set by the NCUA Board.
     Dividends are accrued monthly based on prior quarter-end balances and paid on the first business day after the
     quarter-end. The dividend rates paid on capital stock for both regular and agent members change quarterly.

     During 2009, USC paid in full an outstanding shareholder loan.

9.   MEMBER DEPOSITS

     Member deposits represent amounts remitted by members over and above the amount required for membership.
     Interest is paid on member deposits at a rate equivalent to the dividend rate paid on required capital stock.

10. CONCENTRATION OF CREDIT RISK

     At December 31, 2009, CLF had a concentration of credit risk for its loans to USC of approximately $4,897,689.

     In January 2009, the NCUA Board announced two additional actions which provided immediate enhancement to the
     corporate credit union system’s liquidity and capital positions. One of these actions was a temporary NCUSIF
     guarantee of member shares in corporate credit unions. The guarantee covers all shares through December 31, 2010
     and included CLF’s deposit in the USC Daily Transaction Share Account.

11. BORROWING AUTHORITY

     CLF is authorized by statute to borrow, from any source, an amount not to exceed 12 times its subscribed capital
     stock and surplus. Until October 1, 2008, Congress, through the appropriations process, placed a limit on gross


                                                         - 13 -
                    NATIONAL CREDIT UNION ADMINISTRATION
                         CENTRAL LIQUIDITY FACILITY
                            Notes to Financial Statement
                            As of and for the Year Ended December 31, 2009
                                     (Dollars in thousands, except share data)

  obligations at $1.5 billion. However, effective October 1, 2008, under Public Law 110-329, Consolidated Security,
  Disaster Assistance, and Continuing Appropriations Act, 2009, Congress took action to remove the annual
  borrowing limitation of $1.5 billion to enable CLF to borrow up to its full statutory authority. As of December 31,
  2009, CLF’s statutory borrowing authority was $43,818,955.

  CLF borrows exclusively from the FFB. The National Credit Union Administration maintains a note purchase
  agreement with the FFB on behalf of CLF. Under the terms of its agreement, CLF borrows from the FFB as needed.
  Under terms prescribed by the master note agreement, CLF executes promissory notes in amounts as necessary and
  renews them annually. Advances made under the current promissory note cannot exceed $25,000,000 and cannot
  mature later than March 31, 2011. During 2009, CLF borrowed amounts totaling $18,537,962 from FFB under
  twenty-five separate loan agreements, which it, in turn, loaned to member credit unions. The amounts owed to the
  FFB at December 31, 2009 totaled $18,312,751. At December 31, 2009, CLF had $6,687,249 available capacity to
  borrow under its current promissory note and such funds are available through March 31, 2010.

  At December 31, 2009 CLF was in compliance with its borrowing authority.

12. RELATED PARTY TRANSACTIONS

  NCUA’s OF pays CLF’s employees’ salaries and benefits as well as CLF’s portion of monthly building and
  operating costs. Expenses are allocated by applying the ratio of CLF full-time equivalent employees to the NCUA
  total. These expenses are reimbursed to NCUA quarterly. All other CLF reimbursement expenses are paid
  annually. The total amount charged by the NCUA was approximately $334 for the year ended December 31, 2009.
  As of December 31, 2009, accounts payable and other liabilities include approximately $145 due to the NCUA’s OF
  for services provided.

  On March 19, 2009, the NCUA Board took steps to stabilize the corporate credit union system when it placed USC
  and Western Corporate Federal Credit Union (WesCorp) into conservatorship. CLF entered into a Funding
  Commitment and Agreement and a Short-Term Revolving Promissory Note on March 20, 2009, to fund
  $20,000,000 with a final maturity date of any advance at December 31, 2010. There was $10,000,000 remaining on
  this commitment as of December 31, 2009. CLF approved an advance of $10,000,000 to NCUSIF in order for
  NCUSIF to make $5,000,000 in liquidity stabilization loans to both USC and WesCorp. This advance was made on
  March 23, 2009, for a period of 91 days, maturing on June 22, 2009 and on June 22, 2009, the advance was renewed
  for an additional 182 days maturing on December 21, 2009. On December 21, 2009, the advance was renewed
  again for an additional 365 days maturing on December 21, 2010. The advance bears interest at a rate of 0.5280%
  per annum.

13. SUBSEQUENT EVENTS

  Management evaluated all events and transactions that occurred after December 31, 2009 through April 28, 2010,
  the date CLF issued these financial statements. In March 2010, CLF renewed its promissory note with the FFB.
  The available capacity under the renewed promissory note is $25,000,000 and the funds are available through March
  31, 2011.




                                                       - 14 -
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




            Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General, National Credit Union Administration and
the Board of Directors, National Credit Union Administration:

We have audited the balance sheet of the National Credit Union Administration Central Liquidity Facility
(CLF) as of December 31, 2009, and the related statements of operations, members’ equity, and cash flows
for the year then ended (hereinafter referred to as “financial statements”), and have issued our report
thereon dated April 28, 2010.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement.

The management of the CLF is responsible for establishing and maintaining effective internal control. In
planning and performing our fiscal year 2009 audit, we considered the CLF’s internal control over
financial reporting by obtaining an understanding of the CLF’s internal control, determining whether
internal controls had been placed in operation, assessing control risk, and performing tests of controls as a
basis for designing our auditing procedures for the purpose of expressing our opinion on the financial
statements. To achieve this purpose, we did not test all internal controls relevant to operating objectives as
broadly defined by the Federal Managers’ Financial Integrity Act of 1982. The objective of our audit was
not to express an opinion on the effectiveness of the CLF’s internal control over financial reporting.
Accordingly, we do not express an opinion on the effectiveness of the CLF’s internal control over financial
reporting.

Our consideration of internal control over financial reporting was for the limited purpose described in the
preceding paragraph and was not designed to identify all deficiencies in the internal control over financial
reporting that might be deficiencies, significant deficiencies, or material weaknesses.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A significant deficiency is a deficiency, or a
combination of deficiencies, in internal control that is less severe than a material weakness, yet important
enough to merit attention by those charged with governance. A material weakness is a deficiency, or
combination of deficiencies, in internal control, such that there is a reasonable possibility that a material
misstatement of the entity’s financial statements will not be prevented, or detected and corrected on a
timely basis.




                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
National Credit Union Administration Central Liquidity Facility
April 28, 2010
Page 2 of 2


In our fiscal year 2009 audit, we did not identify any deficiencies in internal control over financial
reporting that we consider to be material weaknesses, as defined above. However, we identified a certain
deficiency in internal control over financial reporting that we consider to be a significant deficiency that is
described in Exhibit I. Exhibit III presents the status of the prior year material weakness.

The CLF’s response to the finding identified in our audit is presented in Exhibit II. We did not audit the
CLF’s response and, accordingly, we express no opinion on it.

This report is intended solely for the information and use of the addressees, the CLF’s management, OMB,
the U.S. Government Accountability Office, and the U.S. Congress and is not intended to be and should
not be used by anyone other than these specified parties.




April 28, 2010
                                                                                                          Exhibit I
                             NATIONAL CREDIT UNION ADMINITRATION –
                                  CENTRAL LIQUIDITY FACILITY
                                         SIGNIFICANT DEFICIENCY




Introduction
This exhibit describes the significant deficiency noted during our audit as of and for the year ended
December 31, 2009, and our recommendation thereon. The Central Liquidity Facility (CLF) management’s
response to this finding is presented in Exhibit II. Exhibit III presents the status of the prior year material
weakness.

CLF Should Improve and Formalize Processes and Controls Over the Preparation of the Financial Statements,
Especially with Respect to the Statement of Cash Flows and the Statement of Members’ Equity
During our review of the CLF’s draft financial statements for the year ended December 31, 2009, we noted that
the statement of cash flows and statement of members’ equity presented in the financial statements contained
omissions and misclassifications, as follows:

   The statement of cash flows did not include approximately $5.9 million in movement related to cash
    equivalents.

   The statement of cash flows did not separately disclose the cash collection of a shareholder loan in the
    amount of $1.7 billion (a financing activity), but instead showed this transaction netted against the purchase
    of U.S. Treasury securities in the amount of $1.8 billion (an investing activity with a different counterparty).

   The supplemental disclosure of cash flow information – cash paid during the year for interest did not include
    interest paid to the Federal Financing Bank (FFB) in the amount of approximately $64 million.

   The statement of members’ equity and notes to the financial statements did not disclose the members’ capital
    stock account shares and changes thereof as required by the authoritative guidance.

Based on discussions with CLF management, the statement of cash flows and statement of members’ equity
presented in the draft financial statements for the year ended December 31, 2009 were prepared following the
processes established in prior years. CLF has historically not presented share information on the balance sheet,
statement of members’ equity, or the related note disclosures.

In fiscal year 2009 CLF changed a significant part of its business activity. From inception to August 2009, the
CLF invested its cash balances with its majority shareholder, the U.S. Central Federal Credit Union (USC).
Historically, these transactions were accounted for as investments in the balance sheet and investing activities in
the statement of cash flows. However, in August 2009, CLF redeemed its USC investments and invested the
proceeds with the U.S. Treasury. This change in business activity, coupled with the presentation of investments
with USC on the December 31, 2008 balance sheet as a shareholder loan (i.e., a contra equity account), caused
the transaction to be misclassified in the 2009 statement of cash flows.
Financial Accounting Standards Board (FASB) Accounting Standards Codification (ASC) sets forth the
presentation requirements for the statement of cash flows. FASB ASC 230-10-45 states, in part, the following:

        45-4 A statement of cash flows shall explain the change during the period in cash and cash equivalents…
        The total amounts of cash and cash equivalents at the beginning and end of the period shown in the

                                                        I-1
                                                                                                        Exhibit I
                             NATIONAL CREDIT UNION ADMINITRATION –
                                  CENTRAL LIQUIDITY FACILITY
                                         SIGNIFICANT DEFICIENCY




        statement of cash flows shall be the same amounts as similarly titled line items or subtotals shown in the
        statements of financial position as of those dates.

        45-26 …[B]oth investing cash inflows and outflows and financing cash inflows and outflows shall be
        reported separately in a statement of cash flows—for example, outlays for acquisitions of property, plant,
        and equipment shall be reported separately from proceeds from sales of property, plant, and equipment;
        proceeds of borrowings shall be reported separately from repayments of debt; and proceeds from issuing
        stock shall be reported separately from outlays to reacquire the entity's stock.
Additionally, FASB ASC 505-10-50-2, Equity Disclosures, states the following:

        50-2 If both financial position and results of operations are presented, disclosure of changes in the
        separate accounts comprising shareholders' equity (in addition to retained earnings) and of the changes in
        the number of shares of equity securities during at least the most recent annual fiscal period…presented
        is required to make the financial statements sufficiently informative. Disclosure of such changes may
        take the form of separate statements or may be made in the basic financial statements or notes thereto.

The omissions and misclassifications noted above were in contravention of the aforementioned U.S. generally
accepted accounting principles (GAAP). Management made the appropriate corrections to the draft statement of
cash flows and the statement of members’ equity to present them in accordance with such GAAP in the issued
version of the financial statements.
This deficiency represents a significant deficiency.
Recommendations

We recommend that the CLF management enhance the process used to prepare the statement of cash flows to
ensure that the FASB ASC 230-10-45 guidance is followed. This would include adding steps for management to
evaluate any new types of transactions and changes in operations to assure such items are properly considered
and presented in accordance with GAAP.

We also recommend that management enhance the process used to prepare the statement of members’ equity to
ensure that the FASB ASC 505-10-50 guidance is followed.




                                                       I-2
                                                                                                      Exhibit III
                            NATIONAL CREDIT UNION ADMINITRATION –
                                 CENTRAL LIQUIDITY FACILITY
                           STATUS OF PRIOR YEAR MATERIAL WEAKNESS




Prior Year Material Weakness

During the fiscal year 2008 financial statement audit, the prior year auditors noted a material weakness regarding
the National Credit Union Administration’s Central Liquidity Facility (CLF) accounting of its funds on deposit at
U.S. Central Federal Credit Union (USC).

Current Year Status of the Prior Year Material Weakness

During fiscal year 2009, CLF replaced its funds on deposit at USC with U.S. Treasury securities. Certain related
deficiencies continued to be observed in 2009 as described in Exhibit I.




                                                      III-1
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                   Independent Auditors’ Report on Compliance and Other Matters


Inspector General, National Credit Union Administration and
the Board of Directors, National Credit Union Administration:

We have audited the balance sheet of the National Credit Union Administration Central Liquidity Facility
(CLF) as of December 31, 2009, and the related statements of operations, members’ equity, and cash flows
for the year then ended (hereinafter referred to as “financial statements”), and have issued our report
thereon dated April 28, 2010.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement.

The management of the CLF is responsible for complying with laws, regulations, and contracts applicable
to the CLF. As part of obtaining reasonable assurance about whether the CLF’s financial statements are
free of material misstatement, we performed tests of the CLF’s compliance with certain provisions of laws,
regulations and contracts, noncompliance with which could have a direct and material effect on the
determination of the financial statement amounts, and certain provisions of other laws and regulations
specified in OMB Bulletin No. 07-04. We limited our tests of compliance to the provisions described in the
preceding sentence, and we did not test compliance with all laws, regulations, and contracts applicable to
the CLF. However, providing an opinion on compliance with those provisions was not an objective of our
audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance discussed in the third paragraph of this report disclosed no instances
of noncompliance or other matters that are required to be reported herein under Government Auditing
Standards or OMB Bulletin No. 07-04.

This report is intended solely for the information and use of the addressees, the CLF’s management, OMB,
the U.S. Government Accountability Office, and the U.S. Congress and is not intended to be and should
not be used by anyone other than these specified parties.




April 28, 2010




                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
National Credit Union Administration
Community Development
Revolving Loan Fund
Financial Statements as of and for the
Years Ended December 31, 2009 and 2008, and
Independent Auditors’ Reports
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

TABLE OF CONTENTS


                                                               Page

INDEPENDENT AUDITORS’ REPORT ON FINANCIAL STATEMENTS            1

FINANCIAL STATEMENTS AS OF AND FOR THE YEARS ENDED
  DECEMBER 31, 2009 AND 2008:

 Balance Sheets                                                 2

 Statements of Operations                                       3

 Statements of Changes in Fund Balance                          4

 Statements of Cash Flows                                       5

 Notes to Financial Statements                                 6-10



INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER
  FINANCIAL REPORTING



INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE AND OTHER MATTERS
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                        Independent Auditors’ Report on Financial Statements


Inspector General, National Credit Union Administration and
the Board of Directors, National Credit Union Administration:

We have audited the accompanying balance sheet of the National Credit Union Administration Community
Development Revolving Loan Fund (CDRLF) as of December 31, 2009, and the related statements of
operations, changes in fund balance, and cash flows for the year then ended (hereinafter referred to as
“financial statements”). These financial statements are the responsibility of the CDRLF’s management.
Our responsibility is to express an opinion on these financial statements based on our audit. The
accompanying financial statements of the CDRLF as of December 31, 2008, were audited by other auditors
whose report thereon dated February 17, 2009, expressed an unqualified opinion on those statements.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement. An audit includes consideration of internal
control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the CDRLF’s
internal control over financial reporting. Accordingly, we express no such opinion. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial statements,
assessing the accounting principles used and significant estimates made by management, as well as
evaluating the overall financial statement presentation. We believe that our audit provides a reasonable
basis for our opinion.

In our opinion, the 2009 financial statements referred to above present fairly, in all material respects, the
financial position of the National Credit Union Administration Community Development Revolving Loan
Fund as of December 31, 2009, and the results of its operations and its cash flows for the year then ended
in conformity with U.S. generally accepted accounting principles.

In accordance with Government Auditing Standards, we have also issued our reports dated February 17,
2010, on our consideration of the CDRLF’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts, and grant agreements and other matters.
The purpose of those reports is to describe the scope of our testing of internal control over financial
reporting and compliance and the results of that testing, and not to provide an opinion on the internal
control over financial reporting or on compliance. Those reports are an integral part of an audit performed
in accordance with Government Auditing Standards and should be read in conjunction with this report in
assessing the results of our audit.




February 17, 2010




                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

BALANCE SHEETS
AS OF DECEMBER 31, 2009 AND 2008


                                                              2009            2008

ASSETS

Cash and cash equivalents (Note 4)                              $8,949,290     5,610,194

Loans receivable (Notes 6, 7, and 8)                             8,818,487    10,553,512

Interest receivable (Note 8)                                         19,193      25,620

Total                                                          $17,786,970    16,189,326


LIABILITIES AND FUND BALANCE

LIABILITIES — Accrued technical assistance (Notes 8 and 11)     $1,604,064     1,267,377

 Commitments and contingencies (Note 11)

FUND BALANCE:

 Fund capital                                                   14,637,777    13,435,642
 Accumulated earnings                                            1,545,129     1,486,307

        Total fund balance (Note 5)                             16,182,906    14,921,949

Total                                                          $17,786,970    16,189,326

See accompanying notes to the financial statements.




                                                 -2-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

STATEMENTS OF OPERATIONS
FOR THE YEARS ENDED DECEMBER 31, 2009 AND 2008


                                                         2009         2008

SUPPORT AND REVENUES:
 Interest on cash and cash equivalents (Notes 4 and 8)      $4,066       35,186
 Interest on loans (Note 8)                                102,584      123,329
 Appropriation revenue (Note 5)                          1,000,000      975,000
       Total support and revenues                        1,106,650    1,133,515

EXPENSES:
 Technical assistance                                    1,049,778    1,157,041
 Provision for loan losses                                  (1,950)          31
      Total expenses                                     1,047,828    1,157,072

NET INCOME (LOSS)                                          $58,822      (23,557)




See accompanying notes to financial statements.




                                                  -3-
  NATIONAL CREDIT UNION ADMINISTRATION
  COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

  STATEMENTS OF CHANGES IN FUND BALANCE
  FOR THE YEARS ENDED DECEMBER 31, 2009 AND 2008
                                          Fund Capital
                                          For Technical                     Total Fund       Accumulated     Total Fund
                            For Loans      Assistance                        Capital           Earnings       Balance

December 31, 2007                       $13,387,777               47,865       13,435,642        1,509,864      14,945,506

  Appropriations received (Note 5)             -                 975,000          975,000             -            975,000
  Appropriations expended                      -               (975,000)        (975,000)             -          (975,000)
  Net loss                                     -                    -                -            (23,557)        (23,557)

December 31, 2008                       $13,387,777               47,865       13,435,642        1,486,307      14,921,949

  Appropriations received (Note 5)             -                2,250,000        2,250,000           -           2,250,000
  Appropriations expended                      -              (1,000,000)      (1,000,000)           -         (1,000,000)
  Appropriations expired                       -                 (47,865)         (47,865)           -            (47,865)
  Net income                                   -                     -                -            58,822           58,822

December 31, 2009                       $13,387,777            1,250,000       14,637,777        1,545,129      16,182,906


            See accompanying notes to financial statements.




                                                                -4-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

STATEMENTS OF CASH FLOWS
FOR THE YEARS ENDED DECEMBER 31, 2009 and 2008


                                                           2009          2008

CASH FLOWS FROM OPERATING ACTIVITIES:

Net Income (Loss)                                            $58,822       (23,557)
Adjustments to reconcile net income (loss) to net cash
used in operating activities:
  Approriation revenue recognized                          (1,000,000)    (975,000)
  Changes in assets and liabilities:
     Decrease in interest receivable                           6,427         4,534
     Increase (Decrease) in accrued technical assistance     336,687       (40,758)

      Net cash used in operating activities                 (598,064)    (1,034,781)

CASH FLOWS FROM INVESTING ACTIVITIES:
 Loan principal repayments                                  4,323,025    3,088,553
 Loan disbursements                                        (2,588,000)    (350,000)

      Net cash provided by investing activities            1,735,025     2,738,553

CASH FLOWS FROM FINANCING ACTIVITIES:
 Appropriations received 2008/2009                              -          975,000
 Appropriations received 2009/2010                         1,000,000          -
 Appropriations received 2010/2011                         1,250,000          -
 Appropriations expired                                      (47,865)         -
     Net cash provided by financing activities             2,202,135       975,000

NET INCREASE IN CASH AND CASH EQUIVALENTS                  3,339,096     2,678,772

CASH AND CASH EQUIVALENTS — Beginning of year              5,610,194     2,931,422

CASH AND CASH EQUIVALENTS — End of year                    $8,949,290    5,610,194

See accompanying notes to financial statements




                                                  -5-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND
NOTES TO FINANCIAL STATEMENTS
AS OF AND FOR THE YEAR ENDED DECEMBER 31, 2009


 1. NATURE OF ORGANIZATION

    The Community Development Revolving Loan Fund for Credit Unions (CDRLF) was established
    by an act of Congress (Public Law 96-123, November 20, 1979) to stimulate economic development
    in low-income communities. The National Credit Union Administration (NCUA) and the
    Community Services Association (CSA) jointly adopted Part 705 of NCUA Rules and Regulations,
    governing administration of the CDRLF, on February 28, 1980.

    Upon the dissolution of CSA in 1983, administration of CDRLF was transferred to the Department
    of Health and Human Services (HHS). From 1983 through 1990, the Fund was dormant.

    The Community Development Credit Union Transfer Act (Public Law 99-609, November 6, 1986)
    transferred CDRLF administration back to NCUA. The NCUA Board adopted amendments to
    Part 705 of NCUA Rules and Regulations on September 16, 1987, and began making loans and
    deposits to participating credit unions in 1990.

    The purpose of CDRLF is to stimulate economic activities in the communities served by
    low-income credit unions, which is expected to result in increased income, ownership, and
    employment opportunities for low-wealth residents, and other economic growth. The policy of
    NCUA is to revolve the loans to qualifying credit unions as often as practical in order to gain
    maximum impact on as many participating credit unions as possible.

 2. SIGNIFICANT ACCOUNTING AND OPERATIONAL POLICIES

    Basis of Accounting — CDRLF reports its financial statements on the accrual basis of accounting
    in conformity with accounting principles generally accepted in the United States of America.

    Cash Equivalents — The Federal Credit Union Act permits CDRLF to make investments in United
    States Government Treasury securities. All investments in 2009 and 2008 were cash equivalents and
    are stated at cost, which approximates fair value. Cash equivalents are highly liquid investments
    with original maturities of three months or less.

    Allowance for Loan Losses — CDRLF records a provision for estimated loan losses based on
    historical loss experience. A provision for loans considered to be uncollectible is charged to the
    income statement when such losses are probable and reasonably estimable. Provisions for significant
    uncollectible amounts are credited to an allowance for loan losses, while de minimis amounts are
    directly charged-off or recovered. Management continually evaluates the adequacy of the allowance
    for loan losses based upon prevailing circumstances and an assessment of collectability risk of the
    total loan portfolio. On the basis of this analysis, no allowance for loan losses was necessary at
    December 31, 2009 and 2008. Accrual of interest is discontinued on non-performing loans when
    management believes collectability is doubtful.



                                                 -6-
  Overhead Expenses — NCUA provides certain general and administrative support to the CDRLF,
  including office space, salaries, and certain supplies. The value of these contributed services is not
  charged to CDRLF.

  Revenue Recognition — Appropriation revenue is recognized as the related technical assistance
  expense is recognized. Total appropriation revenues will differ from total technical assistance
  expenses because not all technical assistance is funded by appropriations. Interest income on cash
  equivalents and on loans is recognized when earned.

  Expense Recognition – Technical assistance expense is recognized when the CDRLF makes a
  formal commitment to the recipient credit union for technical assistance.

  Use of Estimates — The preparation of financial statements in conformity with accounting
  principles generally accepted in the United States of America requires management to make
  estimates and assumptions that affect the reported amounts of assets and liabilities and disclosure of
  contingent assets and liabilities at the date of the financial statements and the reported amounts of
  revenues and expenses during the reporting period. Actual results could differ from management’s
  estimates.

  Income Taxes – The CDRLF, as a government entity, is not subject to federal, state or local income
  taxes, and accordingly, no provision for income taxes is provided.

3. NEWLY IMPLEMENTED ACCOUNTING STANDARDS

  Effective December 31, 2009 CDRLF adopted the Financial Accounting Standards Board (FASB)
  Statement of Financial Accounting Standards (SFAS) No. 168, The FASB Accounting Standards
  Codification and the Hierarchy of Generally Accepted Accounting Principles. SFAS No. 168
  established the FASB Accounting Standards Codification (ASC) as a sole source of authoritative
  accounting principles recognized by the FASB to be applied by nonpublic entities in the preparation
  of financial statements in conformity with GAAP (the GAAP hierarchy).

4. CASH AND CASH EQUIVALENTS

  CDRLF’s cash and cash equivalents at December 31, 2009 and 2008 are as follows:

                                                       2009              2008
                    Deposit with U.S. Treasury     $ 3,949,290           1,410,194
                    U.S. Treasury Overnight
                        Investments                   5,000,000          4,200,000
                    Total Investments               $ 8,949,290          5,610,194


5. GOVERNMENT REGULATIONS

  CDRLF is subject to various Federal laws and regulations. Assistance, which includes lending and
  technical assistance, is limited by Congress to a total of the $16,182,906 appropriated to date for
  CDRLF, which includes accumulated earnings. Federally chartered or state-chartered credit unions
  with a low-income designation are eligible to participate in CDRLF’s loan and technical assistance
  program.




                                                 -7-
  During the year ended December 31, 2009, CDRLF received appropriations for technical assistance
  in the amount of $2,250,000: $1,000,000 for the Federal Government’s fiscal years 2009–2010,
  with no rescission; and, $1,250,000 for the Federal Government’s fiscal years 2010-2011 with no
  rescission.

  During the year ended December 31, 2008, CDRLF received appropriations for technical assistance
  in the amount of $975,000 for the Federal Government’s fiscal years 2008–2009, with no rescission.

  These amounts were designated to be used for technical assistance and no amounts were designated
  to be used as revolving fund capital.

  Appropriations in the amount of $47,865 from fiscal years 2003 and 2004 were remitted to the U.S.
  Treasury in 2009 upon expiration.

  For the appropriations received for technical assistance for the Federal Government’s fiscal year
  2009-2010, $1,000,000 expires on September 30, 2010, and $1,250,000 expires on September 30,
  2011.


6. LOANS RECEIVABLE

  Loans outstanding at December 31, 2009 and 2008, are scheduled to be repaid during the following
  subsequent years:

                                              2009                  2008

                 2009                             $   -             2,964,967
                 2010                             2,743,464         2,825,455
                 2011                             2,752,384         2,577,106
                 2012                             2,354,916         2,115,984
                 2013                               513,800             70,000
                 2014                               453,923           -
    Loans outstanding                            8,818,487         10,553,512
    Allowance for loan losses                         -                  -
    Total loans receivable                      $8,818,487         10,553,512


  NCUA Rules and Regulations Section 705.7 permit the classification of the loan in the participating
  credit union’s accounting records as a nonmember deposit. As a nonmember deposit, an amount not
  to exceed $250,000 per credit union is insured by the National Credit Union Share Insurance Fund
  (NCUSIF). The aggregate amount of uninsured loans totaled $293,910 at December 31, 2009, and
  $247,161 at December 31, 2008.

  Loans are limited to a maximum amount of $300,000 per credit union. Per NCUA policy, loans
  issued after January 1, 2002, carry a fixed rate of 1%. Interest and principal are to be repaid on a
  semiannual basis beginning six months and one year, respectively, after the initial distribution of the
  loan. The maximum term of each loan is five years.

  CDRLF has the intent and ability to hold its loans to maturity. CDRLF anticipates realizing the
  carrying amount in full.



                                                -8-
7. CONCENTRATION OF CREDIT RISK

  At December 31, 2009 and 2008, there are no significant geographic or individual counterparty
  concentrations of credit risk in the loan portfolio. As discussed in note 1, CDRLF provides loans to
  credit unions that serve predominantly low-income communities.

8. ESTIMATED FAIR VALUE OF FINANCIAL INSTRUMENTS

  The following disclosures of the estimated fair value of financial instruments are made in
  accordance with the requirements of FASB ASC No. 825, Disclosures about Fair Value of
  Financial Instruments. The fair value of a financial instrument is the amount that would be received
  to sell an asset or paid to transfer a liability in an orderly transaction between market participants at
  the measurement date. The methods and assumptions used in estimating the fair value disclosures
  for financial instruments are as follows:

  Cash and cash equivalents — The carrying amounts for cash and cash equivalents approximate fair
  values.

  Interest receivable and accrued technical assistance — Such items are recorded at book values,
  which approximate the respective fair values.

  Loans receivable — The fair value is estimated by discounting projected future cash flows based on
  benchmark interest rates. For purposes of this calculation, the discount rate used was the U.S.
  Treasury constant maturity rate for similar maturities plus a two percent risk premium: 3.64% at
  December 31, 2009 and 3.04% at December 31, 2008.

  The carrying amount and the estimated fair value of the CDRLF’s financial instruments are as
  follows:


                                           Carrying          Estimated
                                           Amount            Fair Value
  Assets:
   Cash and cash equivalents           $ 8,949,290       $ 8,949,290

   Loans receivable                    $ 8,818,487       $ 8,310,773

   Interest receivable                 $      19,193     $      19,193

  Liabilities — accrued technical
   assistance                              $1,604,064    $ 1,604,064



9. OVERHEAD EXPENSES

  NCUA, in supporting the activities of the CDRLF, provides for the administration of the CDRLF.
  The administrative costs paid by the NCUA’s Operating Fund are directly related to the percentage
  of employees’ time spent on the CDRLF. The administrative cost calculation takes into account the
  employees’ salary, benefits, travel, training, and certain “other” costs (telephone, supplies, printing,
  and postage).




                                                   -9-
     For the years ending December 31, 2009 and 2008, the NCUA through the Operating Fund, paid the
     following overhead expenses on behalf of the CDRLF:

                                                           2009            2008
                       Employee                         $ 242,223           212,934
                       Other                               12,303            12,070
                                                        $ 254,526           225,004


10. SUBSEQUENT EVENTS (FAS 165, ASC 855)

Subsequent events have been evaluated through February 17, 2010, which is the date the financial
statements were available to be issued.

There have been no activities that would materially affect financial statement balances as of December
31, 2009.

11. COMMITMENTS AND CONTINGENCIES

     As of December 31, 2009, the CDRLF has the following outstanding commitments:

                Loans approved but not yet disbursed:                     $                -

                Technical assistance approved but not yet disbursed:      $       1,604,064

     In accordance with the terms of such agreements, and as a condition for eventual disbursement, the
     borrower or technical assistance recipient may be required to satisfy specified contractual criteria.
     Loan commitments are not recognized until the loan agreement has been signed.




                                                  - 10 -
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




             Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General, National Credit Union Administration and
the Board of Directors, National Credit Union Administration:

We have audited the balance sheet of the National Credit Union Administration Community Development
Revolving Loan Fund (CDRLF) as of December 31, 2009, and the related statements of operations,
changes in fund balance, and cash flows for the year then ended (hereinafter referred to as “financial
statements”), and have issued our report thereon dated February 17, 2010.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement.

The management of the CDRLF is responsible for establishing and maintaining effective internal control.
In planning and performing our fiscal year 2009 audit, we considered the CDRLF’s internal control over
financial reporting by obtaining an understanding of the CDRLF’s internal control, determining whether
internal controls had been placed in operation, assessing control risk, and performing tests of controls as a
basis for designing our auditing procedures for the purpose of expressing our opinion on the financial
statements. To achieve this purpose, we did not test all internal controls relevant to operating objectives as
broadly defined by the Federal Managers’ Financial Integrity Act of 1982. The objective of our audit was
not to express an opinion on the effectiveness of the CDRLF’s internal control over financial reporting.
Accordingly, we do not express an opinion on the effectiveness of the CDRLF’s internal control over
financial reporting.

Our consideration of internal control over financial reporting was for the limited purpose described in the
preceding paragraph and was not designed to identify all deficiencies in the internal control over financial
reporting that might be deficiencies, significant deficiencies, or material weaknesses.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A significant deficiency is a deficiency, or a
combination of deficiencies, in internal control that is less severe than a material weakness, yet important
enough to merit attention by those charged with governance. A material weakness is a deficiency, or
combination of deficiencies, in internal control, such that there is a reasonable possibility that a material
misstatement of the entity’s financial statements will not be prevented, or detected and corrected on a
timely basis.

In our fiscal year 2009 audit, we identified a certain deficiency in internal control over financial reporting
that we consider to be a material weakness, described in Exhibit I, and another deficiency that we consider
to be a significant deficiency, described in Exhibit II.


                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
National Credit Union Administration Community Development Revolving Loan Fund
February 17, 2010
Page 2 of 2




The CDRLF’s responses to the findings identified in our audit are presented in Exhibit III. We did not audit
the CDRLF’s response and, accordingly, we express no opinion on it.

We noted a certain additional matter that we have reported to CDRLF management in a separate letter
dated February 17, 2010.

This report is intended solely for the information and use of the addressees, CDRLF’s management, OMB,
the U.S. Government Accountability Office, and the U.S. Congress and is not intended to be and should not
be used by anyone other than these specified parties.




February 17, 2010
                                                                                                 Exhibit I
                      NATIONAL CREDIT UNION ADMINITRATION –
                   COMMUNITY DEVELOPMENT REVOLVING LOAN FUND
                                       MATERIAL WEAKNESS
Introduction
This exhibit describes the material weakness noted during our audit as of and for the year ended
December 31, 2009, and our recommendations thereon. The Community Development Revolving Loan
Fund (CDRLF) management’s response to this finding is presented in Exhibit III.

Improvements Needed in Management’s Review Procedures Over the Cash Handling and
Reconciliation Process

CDRLF records cash disbursements when the request for funds is submitted to the U.S. Department of the
Treasury (U.S. Treasury), as opposed to when the funds are transferred to the recipients (i.e., custody of
cash is relinquished), which is not in accordance with the Financial Accounting Standards Board (FASB)
Accounting Standards Codification (ASC) financial assets de-recognition standard. CDRLF management
indicated that they recorded disbursements at the time checks were requested from the U.S. Treasury in
order to track the use of funds. As a result, the cash and accounts payable balances were understated by
approximately $55,000 at December 31, 2009. Management recorded an adjusting entry to properly reflect
the cash and accrued technical assistance liability account balances in the financial statements.

In addition, CDRLF did not record the Congressional appropriation for the federal fiscal year 2010/2011,
which was received on December 30, 2009. The National Credit Union Administration Office of the Chief
Financial Officer (OCFO) prepared the agency wide reporting to and reconciliation of transactions and
balances with the U.S. Treasury (the reconciliation) and provided the reconciliation to the fund supervisor
to reconcile with the fund general ledger. The CDRLF supervisor did not utilize the section of the
reconciliation that documented the U.S. Treasury balance for CDRLF and therefore did not realize that
CDRLF had not recorded the Congressional appropriation for the federal fiscal year 2010/2011. As a
result, the cash and fund balance (i.e., operating appropriations received) were understated by $1,250,000
at December 31, 2009. Management recorded an adjusting entry to properly reflect the cash and fund
balance in the financial statements.

This deficiency represents a material weakness.
Recommendations

We recommend that the CDRLF modify accounting policies, procedures and controls as follows:

   Record cash disbursements when the funds are mailed to the recipients (i.e., when custody of cash is
    relinquished and other de-recognition criteria are satisfied).
   Record cash receipts when appropriations are received.
   Perform appropriate account reconciliation procedures.
   Make source documents available to the fund supervisor to ensure that out-of-balance errors are
    detected and corrected.




                                                   I-1
                                                                                                   Exhibit II
                       NATIONAL CREDIT UNION ADMINITRATION –
                    COMMUNITY DEVELOPMENT REVOLVING LOAN FUND
                                      SIGNIFICANT DEFICIENCY


Introduction
This exhibit describes the significant deficiency noted during our audit as of and for the year ended
December 31, 2009, and our recommendations thereon. The Community Development Revolving Loan
Fund (CDRLF) management’s response to this finding is presented in Exhibit III.
Improvements Needed in Management’s Review Procedures Over the Financial Accounting and
Reporting Process
CDRLF does not have formal policies and procedures that require secondary reviews and approvals of the
financial statements and related supporting documentation. The supervisory reviews performed were not
effective in identifying missing disclosures and financial statement errors. For example, the draft financial
statements prepared for the year ended December 31, 2009 did not disclose the new accounting standard
that should have been implemented in fiscal year 2009, the Statement of Financial Accounting Standards
(SFAS) No. 168, The FASB Accounting Standards Codification and the Hierarchy of Generally Accepted
Accounting Principles, (FASB ASC) and the FASB ASC references for the standards applicable to
CDRLF. Further, the amount disclosed in the fair value note for cash and cash equivalents did not agree
with the corresponding amount on the balance sheet.

In addition, CDRLF does not have procedures in place that require review and approval of the journal
entries and related supporting documentation because the journal entries that we tested did not have
evidence that the journal entries were reviewed and approved by someone other than the preparer.

Office of Management and Budget (OMB) Circular No. A-123, Management Accountability and Control,
defines management’s responsibility and provides guidance to Federal managers on improving the
accountability and effectiveness of Federal programs and operations by establishing, assessing, correcting,
and reporting on internal control. Management controls are the organization policies and procedures used
to reasonably ensure that (i) programs achieve their intended results; (ii) resources are used consistent with
agency mission; (iii) programs and resources are protected from waste, fraud, and mismanagement; (iv)
laws and regulations are followed; and (v) reliable and timely information is obtained, maintained, reported
and used for decision making. OMB Circular No. A-123 states the following:

        Policies and Procedures - Developing a written strategy for internal agency use may help ensure
        that appropriate action is taken throughout the year to meet the objectives of the Federal Managers’
        Financial Integrity Act (FMFIA) of 1982 as codified in 31 U.S.C. 3512.

        Separation of Duties and Supervision – Key duties and responsibilities in authorizing, processing,
        recording, and reviewing official agency transactions should be separated among individuals.
        Managers should exercise appropriate oversight to ensure individuals do not exceed or abuse their
        assigned authorities.

        Recording and Documentation – Transactions should be promptly recorded, properly classified and
        accounted for in order to prepare timely accounts and reliable financial and other reports. The
        documentation for transactions, management controls, and other significant events must be clear
        and readily available for examination.

Without effective policies and procedures in place, there is an increased risk of material misstatements to
the financial statements and related disclosures.

                                                    II-1
                                                                                             Exhibit II
                      NATIONAL CREDIT UNION ADMINITRATION –
                   COMMUNITY DEVELOPMENT REVOLVING LOAN FUND
                                    SIGNIFICANT DEFICIENCY


Recommendations

We recommend that CDRLF modify accounting policies, procedures and controls as follows:

   Establish formal policies and procedures requiring supervisory review of financial statements and
    related supporting documentation to ensure that all significant and relevant missing disclosures are
    identified and financial statement errors are identified and corrected in a timely manner.

   Develop and implement policies and procedures to:

      i) Require review and approval of all journal entries by an appropriate individual other than the
      person generating the entry (we acknowledge that the limited number of staff may pose challenges
      and that a broad solution may ultimately be necessary); and

      ii) Assign documented accountability for supervisory reviews either electronically through system
      access or manually through hard copy sign-off.




                                                 II-2
                        National Credit Union Administration


                                                                                 Exhibit III


                  NATIONAL CREDIT UNION ADMINISTRATION
               COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

                   MANAGEMENT RESPONSE TO AUDIT FINDINGS




CDRLF Finding 09-01: Cash and Cash Equivalents

CDRLF Management generally agrees with the auditors’ findings. Management has
implemented policy and procedure changes and has taken corrective action to include the
following:

Effective with the February 2010 statement, the CDRLF business process was amended so
that cash receipts and disbursements are recorded in accordance with Generally Accepted
Accounting Principles. The business process was also amended effective January 1, 2010,
with the implementation of the Delphi-Oracle accounting system: the CDRLF will be
responsible for separately producing and reconciling its treasury cash reports.



CDRLF Finding 09-03: Management’s Review Procedures Over the Financial Accounting

CDRLF Management generally agrees with the auditors’ findings. Management has
implemented policy and procedure changes and has taken corrective action to include the
following:

The CDRLF will establish procedures which require Supervisory review and approval of
financial statements, journal entries, and supporting documentation.
Further, effective with the conversion of the agency’s accounting system to Delphi-Oracle,
secondary review requirements are programmed into the online accounting system, thus
required.




  1775 Duke Street - Alexandria, VA 22314-3428 - 703-518-6300
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                    Independent Auditors’ Report on Compliance and Other Matters


Inspector General, National Credit Union Administration and
the Board of Directors, National Credit Union Administration:

We have audited the balance sheet of the National Credit Union Administration Community Development
Revolving Loan Fund (CDRLF) as of December 31, 2009, and the related statements of operations,
changes in fund balance, and cash flows for the year then ended (hereinafter referred to as “financial
statements”), and have issued our report thereon dated February 17, 2010.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement.

The management of the CDRLF is responsible for complying with laws, regulations, contracts, and grant
agreements applicable to the CDRLF. As part of obtaining reasonable assurance about whether the
CDRLF’s financial statements are free of material misstatement, we performed tests of the CDRLF’s
compliance with certain provisions of laws, regulations, contracts, and grant agreements, noncompliance
with which could have a direct and material effect on the determination of the financial statement amounts,
and certain provisions of other laws and regulations specified in OMB Bulletin No. 07-04. We limited our
tests of compliance to the provisions described in the preceding sentence, and we did not test compliance
with all laws, regulations, contracts, and grant agreements applicable to the CDRLF. However, providing
an opinion on compliance with those provisions was not an objective of our audit, and accordingly, we do
not express such an opinion.

The results of our tests of compliance discussed in the third paragraph of this report disclosed no instances
of noncompliance or other matters that are required to be reported herein under Government Auditing
Standards or OMB Bulletin No. 07-04.

This report is intended solely for the information and use of the addressees, CDRLF’s management, OMB,
the U.S. Government Accountability Office, and the U.S. Congress and is not intended to be and should not
be used by anyone other than these specified parties.




February 17, 2010




                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
